<html>
<title> - THE 2004 PRESIDENTIAL AWARDEES FOR EXCELLENCE IN MATHEMATICS AND SCIENCE TEACHING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                     THE 2004 PRESIDENTIAL AWARDEES
                           FOR EXCELLENCE IN
                    MATHEMATICS AND SCIENCE TEACHING

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2005

                               __________

                            Serial No. 109-9

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
20-424                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                             April 14, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............     7
    Written Statement............................................     8

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............     8
    Written Statement............................................     9

Prepared Statement by Representative Bob Inglis, Chairman, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    10

Statement by Representative Michael T. McCaul, Member, Committee 
  on Science, U.S. House of Representatives......................    14

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    11

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    11

Statement by Representative Darlene Hooley, Member, Committee on 
  Science, U.S. House of Representatives.........................    14

Prepared Statement by Representative Lincoln Davis, Member, 
  Committee on Science, U.S. House of Representatives............    12

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    12

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    12

Statement by Representative Jim Matheson, Member, Committee on 
  Science, U.S. House of Representatives.........................    13

                               Witnesses:

Ms. Joyce W. Dodd, Bryson Middle School, Simpsonville, South 
  Carolina
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    18
    Financial Disclosure.........................................    19

Ms. Cynthis L. Cliche, Homer Pittard Campus School, Murfreesboro, 
  Tennessee
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    23
    Financial Disclosure.........................................    24

Ms. Cassandra Barnes, Oregon Trail Elementary School, Clackamas, 
  Oregon
    Oral Statement...............................................    24
    Written Statement............................................    26
    Financial Disclosure.........................................    28

Ms. Lonna Sanderson, Will Davis Elementary School, Austin, Texas
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    32
    Financial Disclosure.........................................    33

Ms. Pita Martinex-McDonald, Cuba Elementary School, Cuba, New 
  Mexico
    Oral Statement...............................................    33
    Biography....................................................    35
    Financial Disclosure.........................................    35

Discussion.......................................................    36

              Appendix: Additional Material for the Record

``Finally, Water: Residents of Navajo Village Overjoyed to Have 
  First Water Line,'' by Leslie Linthicum........................    56

 
   THE 2004 PRESIDENTIAL AWARDEES FOR EXCELLENCE IN MATHEMATICS AND 
                            SCIENCE TEACHING

                              ----------                              


                        THURSDAY, APRIL 14, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:13 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     The 2004 Presidential Awardees

                           for Excellence in

                    Mathematics and Science Teaching

                        thursday, april 14, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, April 14, 2005, the House Committee on Science will 
hold its annual hearing to hear from teachers on how the Federal 
Government can help improve K-12 math and science education. Five 
elementary school math and science teachers will testify before the 
Committee. They are in town this week to receive the 2004 Presidential 
Award for Excellence in Mathematics and Science Teaching, the Nation's 
highest commendation for K-12 math and science educators. At the 
conclusion of the formal hearing process, the other awardees, who will 
also be in attendance at the hearing, will be given the opportunity to 
make brief statements on the subject of K-12 math and science 
education. Their comments will be entered into the official hearing 
record.

2. Witnesses

Joyce Dodd teaches sixth grade mathematics at Bryson Middle School in 
Simpsonville, SC. Ms. Dodd has more than 30 years of teaching 
experience.

Cynthia Cliche (rhymes with fish) teaches first grade mathematics at 
Homer Pittard Campus School in Murfreesboro, TN. Ms. Cliche is also a 
college level Math Methods instructor for Middle Tennessee State 
University. Ms. Cliche has more than 20 years of teaching experience.

Cassandra Barnes teaches third grade mathematics at Oregon Trail 
Elementary School in Clackamas, OR. Ms. Barnes has 10 years of teaching 
experience.

Lonna Sanderson teaches third grade science at Will Davis Elementary 
School in Austin, TX. Ms. Sanderson is a National Board Certified 
Teacher with more than 30 years of teaching experience.

Pita Martinez-McDonald teaches fourth grade science at Cuba Elementary 
School in Cuba, NM. Ms. Martinez-McDonald has more than 30 years of 
teaching experience.

3. Background

    On April 26, 1983, a blue-ribbon commission appointed by the Reagan 
Administration released ``A Nation at Risk,'' a report containing 
strong language and disturbing findings on the state of education in 
the U.S. In one of its more memorable lines, the report stated, ``If 
any unfriendly foreign power had attempted to impose on America the 
mediocre education performance that exists today, we might well have 
viewed it as an act of war.'' Included among the ``indicators of risk'' 
were international comparisons of student achievement, which revealed 
that U.S. students were never first or second on any of 19 different 
academic tests, and they scored in last place in seven of them. 
National assessments also showed a steady decline in science 
achievement scores of U.S. 17-year-olds.
    Today, U.S., educators, researchers, policy-makers and the general 
public use the National Assessment of Educational Progress (NAEP), a 
congressionally-mandated project of the National Center for Education 
Statistics at the U.S. Department of Education (ED), to determine what 
students know and can do in various subject areas. While NAEP does not, 
and is not designed to, report on the performance of individual 
students, it does compare student achievement in states and other 
jurisdictions and track changes in the achievement of fourth-, eighth-, 
and twelfth-graders over time in mathematics, reading, writing, 
science, and other content areas.
    In mathematics, the 2003 NAEP results (the latest report available) 
found the performance of fourth and eighth graders increased steadily 
from 1990 to 2003, and the average scores in 2003 were higher than in 
all previous assessments. More encouraging, some of the lowest-
performing students made the greatest improvements. The proportion of 
African-American and Hispanic fourth graders reaching the basic 
achievement level--the level of minimum competency--in mathematics rose 
from 36 to 54 percent and 42 to 62 percent respectively. It was also 
notable that these achievements occurred while higher-scoring students 
also made gains, although at a somewhat slower rate.
    This represents real progress, but many U.S. students are still not 
proficient in mathematics. While the 2003 NAEP showed an increase in 
the proportion of students reaching the proficient level, only 32 
percent in grade four and 29 percent in grade eight were able to do so 
and even smaller proportions were able to reach the advanced levels. In 
addition, while the 2003 NAEP did not assess students in grade 12, the 
2000 NAEP found that 35 percent of twelfth graders were below the basic 
achievement level in mathematics, reinforcing the concern that 
achievement falters as students progress from middle school to high 
school.
    In science, the 2000 NAEP (the latest report available) showed that 
the average scores of fourth and eighth graders were essentially 
unchanged from 1996 while the scores for twelfth graders declined by 
three points--a significant decline. Specifically, in 2000, only 29 
percent of fourth graders scored proficient or better as did 32 percent 
of eighth graders and 18 percent of twelfth graders. Worse, scores for 
American Indian students in eight grade and white students in twelfth 
grade fell from 1996 to 2000.
    For a comparative perspective on education in the U.S. and in other 
industrialized nations, the U.S. uses the Trends in International 
Mathematics and Science Study (TIMSS), an assessment given every four 
years, to provide participating nations with information on their 
students' understanding of math and science. The 2003 TIMSS, issued in 
December 2004, showed that the absolute scores of U.S. fourth and 
eighth grade students improved. However, while the relative rank of 
U.S. eighth graders improved, the rank of fourth graders dropped. U.S. 
students performed in the middle ranks of students in mathematics (in 
which students from about 35 nations were tested), and somewhat higher 
in science (in which students from about 15 nations were tested). U.S. 
students did not lead in any category.
    The 2003 TIMSS did not assess 12th graders but another 
international assessment, the Program for International Student 
Achievement (PISA), showed American 15-year-olds performing below the 
international average in mathematics literacy and problem-solving.
    While U.S. undergraduate and graduate education remains the envy of 
the world, the interest of, and the participation by U.S. students in 
science, technology, engineering and math is declining. In fact, 25-30 
percent of entering freshmen express an interest in science and 
engineering, but less than half complete a science or engineering 
degree in five years. As the number of U.S. science and engineering 
students declines, our dependence on foreign students grows. According 
to NSF's Science and Engineering Indicators (2002), the percentage of 
foreign-born individuals among scientists and engineers in the U.S. is 
growing at all degree levels, in all sectors, and in most fields. 
Especially high percentages are found in engineering (45 percent), 
computer sciences (43 percent) and mathematics (30 percent).
Issues in K-12 Education
    Over the years, education research and successful reform 
initiatives have underscored the importance of having a qualified 
teacher. Yet, in response to impending teacher shortages, particularly 
in mathematics and science, many states have allowed individuals 
without the appropriate background to teach. In fact, the Department of 
Education's 2004 ``Condition of Education'' report found that 49 
percent of seventh grade mathematics teachers did not have the 
equivalent of a minor in mathematics, and that 32 percent of middle 
school science teachers did not have the equivalent of a minor in any 
of the sciences. Not surprising, high school students in high minority 
and high poverty public schools fared even worse with more science and 
mathematics courses taught by out-of-field teachers.
    A related problem is the exodus of new teachers from the 
profession, with more than 30 percent leaving within five years. High 
teacher turnover creates a continual demand for new teachers, and those 
teachers require teacher professional education and development. Partly 
as a result, many schools are moving toward the regulation of teaching 
practice, such as the use of more scripted curriculum materials--a 
change that may limit some able teachers from exercising their 
professional knowledge and discretion, making teaching less inviting to 
those most qualified.
    To achieve the twin goals of improving education and narrowing the 
achievement gap, No Child Left Behind--President Bush's comprehensive 
K-12 education law--requires a ``highly qualified'' teacher in every 
classroom, it raises the qualifications of paraprofessionals (also 
known as teacher aides) and it requires public reporting of staff 
qualifications. It also provides state grants to recruit and train 
teachers.
    At its center, No Child Left Behind seeks to hold schools 
accountable for the progress of their students by requiring annual 
testing for all students in grades 3-8 in reading and math and by 
ensuring that all students make ``annual yearly progress'' toward 
proficiency in these subjects, the prime measure of success under the 
law. Failure to do so results in a school being identified as ``needing 
improvement,'' which triggers various interventions, such as choices 
for parents and corrective actions. In addition, states are required to 
have academic-content standards in place for science by the 2005-2006 
school year and, beginning in 2007-2008, states will also have to test 
in science at least once in each of the 3-5, 6-9 and 10-12 grade spans. 
But science test results will not be counted as a factor in determining 
whether a school or district is making adequate yearly progress unless 
states voluntarily decide to impose that step.
    While many have credited the new law with the improvement in 
student achievement on national and international assessments, others 
have complained that the reliance on testing has resulted in ``teaching 
to the test'' and ``dumbing down the curriculum.'' In addition, while 
the science requirements under No Child Left Behind have placed a 
renewed emphasis on the subject, including the design of new tests and 
the reform of science courses to align them to state standards, many 
believe that the more immediate pressures in reading and mathematics 
will keep science at the margins of education.

National Science Foundation (NSF) K-12 Education Programs
            Math and Science Partnership Program
    No Child Left Behind also called for the creation of a new Math and 
Science Partnership Program at NSF to bring together higher education, 
school systems and businesses. Ultimately, Congress created two 
complementary programs: one at NSF and one at ED. The NSF program 
awards grants on a peer-reviewed, competitive basis to partnerships 
between institutions of higher education and one or more school 
districts to improve math and science education. Funds are used to 
develop innovative reform programs that, if proven successful, would be 
the key to large-scale reform at the state level. The ED program 
allocates funding on the basis of population and poverty to all 50 
states, which then compete the funding to math and science partnerships 
at the local level.
    The Administration's fiscal year 2005 (FY05) budget attempted to 
zero out the NSF program and transfer the remaining $120 million to ED. 
The Science Committee opposed the move in its FY05 Views and Estimates. 
In relevant part, the Committee stated:

         The Committee is especially troubled by the proposal to 
        eliminate the NSF's Math and Science Partnership Program. This 
        program was specifically authorized as part of the National 
        Science Foundation Authorization Act of 2002. The Committee 
        strongly believes that NSF is the only federal agency with a 
        proven record of selecting education projects that offer the 
        best hope to narrow the achievement gap and raise student 
        performance in math and science. Through its competitive, 
        merit-based process, NSF is uniquely qualified to use its 
        decades of experience in education research and evaluation to 
        appraise grant proposals and to strengthen the link between 
        research findings and classroom practice. The Partnerships 
        program should be funded at the authorized level of $200 
        million.

    This transfer was ultimately rejected by the Congress. While the 
President's FY06 budget request did not renew the call for the 
transfer, it requested only $80 million to meet existing obligations 
under the NSF program. Further, the request increased funding for the 
ED program and made clear that no new NSF grants would be awarded in 
FY06.

            Elementary, Secondary, and Informal Education
    NSF also sponsors a number of other programs through its Division 
of Elementary, Secondary, and Informal Education that are designed to 
improve pre-K-12 science, technology, engineering and mathematics 
education. Some, such as the Instructional Materials Development 
Program, are designed to develop and disseminate instructional 
materials and assessments. Others, like the Informal Science Education 
Program, are designed to promote learning outside the classroom, 
including through the media, museum exhibits and community-based 
organizations. Funding for Elementary, Secondary and Informal Education 
at NSF--a division of the Education and Human Resources Directorate--
totaled approximately $181 million in FY05. The President's FY06 budget 
request provides only $141 million. The committee expressed its concern 
in its FY06 Views and Estimates. In part:

         The Committee is especially disturbed by the proposed cuts in 
        NSF's Education and Human Resources (EHR) Directorate. Since 
        1950, NSF has been tasked with strengthening math and science 
        education programs at all levels. Yet under the budget 
        proposal, the overall investment in education at NSF would drop 
        from $841.4 million in FY05 to $737 million in FY06 (down 12 
        percent). Much of the decrease would occur in the Elementary, 
        Secondary, and Informal Education (ESIE) account, which would 
        drop from $182 million to $141 million....

         NSF's education programs are unique in their capacity to 
        develop new and improved materials and assessments, create 
        better teacher training techniques and move promising ideas 
        from research to practice. The Committee fears that 
        disinvestments in this area will deprive states, school 
        districts and schools of the tools and ideas they need to 
        achieve the goals of the No Child Left Behind Act. NSF's EHR 
        programs should receive at least level funding in FY06.

Presidential Award for Excellence in Mathematics and Science Teaching
    In 1983, President Reagan signed into a law a program establishing 
the Presidential Award for Excellence in Mathematics and Science 
Teaching to identify outstanding science and mathematics teachers in 
kindergarten through 12th grade. The program, which is administered by 
NSF, identifies outstanding science and mathematics teachers, 
kindergarten through 12th grade, in each state. These teachers are to 
serve as models for their colleagues and will be leaders in the 
improvement of science and mathematics education. In fact, since 1983 
over 3,000 teachers have been selected to enter the network of 
Presidential Awardees. While most have remained in the classroom, some 
have become school principals, supervisors, superintendents and college 
faculty.
    Recognition is given to K-12 teachers in four award groups: (l) 
elementary mathematics, (2) elementary science, (3) secondary 
mathematics, and (4) secondary science, with the secondary groups 
including middle, junior, and senior high school teachers. The award 
now alternates yearly by grade level. This year, the award will 
recognize teachers of grades K-6, with one elementary math and one 
elementary science awardee from each state.
    Teachers applying for the award must be nominated. Anyone may 
nominate a teacher (self-nominations, however, are not accepted), and 
then a state selection committee chooses three finalists from each 
award group for recognition at the state level. A national selection 
committee, comprising prominent mathematicians, scientists and 
educators, reviews the state-level finalists and makes award 
recommendations to NSF and the President. Each award includes a $10,000 
award from the NSF for the recipient's school and a Presidential 
citation. In addition, awardees are invited to attend an award ceremony 
and other Washington recognition events, including meetings with 
leaders in government and education.

4. Questions for Witnesses

    The panelists were asked to address the following questions in 
their testimony before the Committee:

        <bullet>  Based on the involvement you have had with federal 
        math and science programs, what are the most important and 
        effective components of these programs?

        <bullet>  What are the factors that limit the performance of 
        students and teachers in math and science? What is the single, 
        most important step that the Federal Government should take to 
        improve math and science education?

        <bullet>  What elements of your pre-service or in-service 
        training have been most helpful in meeting the daily demands of 
        working with students, developing innovative classroom 
        strategies and delivering content rich instruction to a diverse 
        group of students?
    Chairman Boehlert. The hearing will come to order.
    I am going to keep my opening remarks brief, because I have 
had the privilege of having breakfast this morning with our 
presidential awardees, and what a pleasure it was to start off 
the day with them.
    Let me just say, though, that there is no issue within our 
jurisdiction that I care more deeply about than science and 
math education, especially at the pre-college level, and I 
suspect that every one of my colleagues here today would say 
the same thing.
    None of the other things this committee wants to see done, 
whether it is developing a hydrogen car or maintaining a 
presence in space, none of these things can be accomplished 
unless we have the scientists and engineers to do the work in a 
scientifically literate society that will support and learn 
from it. And of course, there is only one way we can create 
those scientists and engineers and educated citizens, and that 
is through education, starting from earliest childhood.
    And who will do the educating? Parents, surely, and, for 
better or worse, the popular culture. But the most critical 
component in the whole system are our nation's teachers. That 
is why one of the first hearings I held as Chairman of this 
committee was with the Presidential Math and Science Teaching 
Awardees, and I promised to make this an annual event.
    Let me say how refreshing it was for the first time--we 
talk a lot about education, we talk a lot about teaching. We 
ought to do more listening, and I can't think of a better group 
to listen to than the people before me, not just those of you 
who are on the panel, but all of those educators that you 
represent who are so dedicated and so devoted.
    You would think that this kind of hearing would be 
happening all of the time, but unfortunately, that is not the 
case. Instead, Congress talks constantly about education, but 
it rarely listens. And it listens least of all to the most 
important experts, actual classroom teachers, the folks at the 
front lines of our nation's education system. And let me tell 
you something. We talk about education. Everybody in this town 
likes to talk about the importance of national security. This 
is a national security issue of the highest order, educating 
our young people, particularly in the math and science 
disciplines. And if you want to be encouraged about the 
opportunities for careers, because everybody expects the same 
thing, you work hard, you do what mom and dad or your preacher 
or your priest or your rabbi tells you to do, you get good 
grades, and you come out and say, ``Here I am world.'' If there 
are no job opportunities, all of that seems to be for naught. I 
will tell you, in my area alone, in central New York, they are 
trying to hire 1,200, not 12, not 112, but 1,200 engineers. I 
had meetings yesterday to talk to these people about them. 
Workforce development, there isn't a Member of Congress who 
doesn't face that. Every time I go back home to talk to the 
business leaders, they say, ``We have got to develop a better-
educated workforce.'' And I say, ``You are right.'' And I wish 
I could bring all of those captains of industry down here to 
listen to this panel.
    I am excited about your presentation, as I am every year. 
And you will see Members of Congress coming and going, because 
quite frankly, while a lot of people are under the 
misunderstanding that Members of Congress don't work very hard, 
I can tell you they work very hard. And Members of Congress are 
not just on a Committee, like this Science Committee, as 
important as it is, they are on defense committees and 
committees dealing with foreign policy and agriculture and 
education, a whole wide range of subjects. So people come and 
go because they are jockeying their schedule, and you will see 
Members come in and go out. It is not because of any lack of 
interest. It is because they are all someplace doing something. 
Woody Allen says, ``Everybody has to be someplace.'' Well, here 
we are. And boy, I am happy to be here. And I am happy to be 
here to introduce you to my associate in this venture, my 
partner, the Ranking Minority Member, Mr. Gordon of Tennessee.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I'm going to keep my opening comments brief so we can get to our 
impressive witnesses without further delay.
    Let me just say, though, that there is no issue within our 
jurisdiction that I care about more deeply than science and math 
education, especially at the pre-college level. And I suspect that 
every one of my colleagues on this dais would say the same thing.
    None of the other things this committee wants to see done--whether 
it's developing a hydrogen car or maintaining a presence in space--none 
of these things can be accomplished unless we have the scientists and 
engineers to do the work and a scientifically literate citizenry who 
will support it and learn from it. And, of course, there's only one way 
we can create those scientists and engineers and educated citizens, and 
that's through education--starting from earliest childhood.
    And who will do the educating? Parents, surely, and, for better or 
worse, the popular culture. But most critical are our nation's 
teachers. That's why one of the first hearings I held as Chairman of 
this committee was with the Presidential Math and Science Teaching 
Awardees, and I promised then to make the hearing an annual event.
    You'd think that this sort of hearing would be happening all the 
time, but, unfortunately, that's not the case. Instead, Congress talks 
constantly about education, but it rarely listens, and it listens least 
of all to the most important experts--actual classroom teachers, the 
folks at the front lines of our nation's educational system.
    So today's hearing offers us a rare opportunity to hear directly 
from teachers--and not just any teachers, but those who have been 
recognized as the best. So we're eager to hear what you have to say.
    We want especially to learn how the Federal Government can help you 
do your jobs. Which federal programs have been helpful and which have 
not worked? Please be candid and specific in your answers, and describe 
particular experiences that you have had. We hear policy prescriptions 
and theories all the time; we want to hear from you about real life.
    But before we begin, let me just congratulate each of you, not only 
for winning this prestigious award, but for doing the incredible work 
that enabled you to earn it. We want to hear from as many of you as 
possible, so we'll go through our usual hearing--listening to testimony 
and asking questions to our panel of four teachers--and then, if time 
allows, we'll open the floor for a while to comments from any of the 
other awardees.
    I'm eager to hear your testimony.

    Mr. Gordon. Thank you, Mr. Chairman. I want to join you in 
welcoming all of these outstanding teachers to our meeting 
today.
    In Washington, we are often not very brief, and we don't 
worry about duplication, but when we occasionally do, we say we 
want to associate ourselves with the remarks of the, whomever 
it might be, and I certainly want to associate myself with the 
remarks of our Chairman, who really summed up my feelings and 
most folks' feelings here about the importance of the job that 
you do, because you really are the men and women that serve on 
the front lines with K-12 in math and science. And as a son of 
two teachers, I admire the skill and the dedication of all of 
you outstanding teachers. And I want to extend my very sincere 
congratulations to all of you.
    And I would particularly like to acknowledge and 
congratulate one of our witnesses, my constituent, Ms. Cynthia 
Cliche from Homer Pittard Campus School in my hometown of 
Murfreesboro, Tennessee. In addition to teaching the first 
grade, Cynthia is a Math Methods instructor at Middle Tennessee 
State University, also my alma mater, so as you can see, there 
is some overlap here.
    There is no more important job--and also I had nothing to 
do with this election. There is no more important job than the 
one these teachers perform every day. Their efforts inspire the 
next generation of scientists, mathematicians, and engineers 
who will make the discoveries and create the technological 
marvels of the future.
    And today, the Science Committee has the privilege of 
hearing from some of the best math and science teachers in the 
Nation, and I hope to learn what attracted you to teaching 
careers and the factors that led to your outstanding success as 
math and science teachers, and what it will take to replicate 
your success and increase your numbers. And I would also 
appreciate hearing about your experiences with federally-
sponsored teacher professional development programs and the 
activities that resulted in new, and hopefully improved, 
teaching materials. This is particularly important to us right 
now, because many of us are concerned that the current 
science--or not only on the Science Committee, but throughout 
Congress, we are very concerned that the fiscal year 2006 
budget contemplates a significant reduction in the programs 
that support K-12 science and math education. So I hope that 
you are going to give us some ammunition to combat the folks 
that want to do that.
    And I would also be interested in hearing about the 
experiences that the expert teachers here this morning have had 
with the National Science Foundation-supported education 
programs and what value they would place on these programs.
    Again, I want to congratulate not only our witnesses but 
all of you here today, you outstanding teachers, for 
contributions that you are making yourself to our country, but 
more importantly, really, for the inspiration in all of those 
apostles that you are sending out to help others.
    Thank you very much.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Mr. Chairman, I am pleased to join you in welcoming the many 
outstanding teachers present in our hearing room this morning.
    Our witnesses, and their colleagues in the audience, have come to 
Washington to receive the Presidential Award for Excellence in 
Mathematics and Science Teaching. These are the men and women who serve 
with distinction on the front lines of K-12 science and math education.
    As the son of two teachers, I admire the skill and dedication of 
these outstanding teachers and extend my warmest congratulations to 
each of them.
    I would particularly like to acknowledge and congratulate one of 
our witnesses, and my constituent, Ms. Cynthia Lynn Cliche from Homer 
Pittard Campus School in Murfreesboro, TN.
    She is a graduate of Ball State University and received a Master's 
degree from Berry College.
    In addition to teaching first grade math, she is a Math Methods 
Instructor at Middle Tennessee State University.
    There is no more important job than the one these teachers perform 
every day. Their efforts inspire the next generation of scientists, 
mathematicians, and engineers, who will make the discoveries and create 
the technological marvels of the future.
    Today, the Science Committee has the privilege of hearing from some 
of the best math and science teachers in the Nation.
    I hope to learn what attracted you to teaching careers and the 
factors that led to your outstanding success as math and science 
teachers--and what it will take to replicate your success and increase 
your numbers.
    I would also appreciate hearing about your experiences with 
federally sponsored teacher professional development programs and 
activities that resulted in new, and hopefully improved, teaching 
materials.
    This is a matter of particular interest to the Science Committee as 
we contemplate the FY 2006 budget request for the National Science 
Foundation, which recommends substantial reductions in the programs 
that support K-12 science and math education activities.
    I would be interested in hearing about the experiences the expert 
teachers here this morning have had with NSF-supported education 
programs, and what value they would place on these programs.
    Again, I want to offer my congratulations to our witnesses on their 
presidential awards. I appreciate their attendance before the 
Committee, and I look forward to our discussion.

    Chairman Boehlert. Thank you very much, Mr. Gordon.

    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Thank you, Mr. Chairman, for the opportunity to congratulate these 
teachers who have demonstrated such excellence in their fields. You all 
represent the future of our nation. By teaching our children in the 
basic skills of math and science, you are sowing the seeds of a 
competitive workforce.
    I'm sure that there are Members of this committee who can speak 
more intelligently about the work you do, including Ms. Hooley, the 
Ranking Member of the Research Subcommittee, who is a former teacher. I 
am looking forward to hearing more from you about the magic you work in 
the classroom, stirring interest in science and mathematics. I'd like 
to take this time to talk a little about the future.
    A few months ago, I spoke to an executive for General Electric. 
When I asked him if he had enough qualified engineers to fill his 
research jobs, he said ``No.'' He could hire 300 tomorrow if they were 
available. He said we need more qualified and inspiring teachers. There 
just aren't enough teachers to train the future scientists and 
engineers his company needs.
    GE is not alone. The Department of Labor estimates that there will 
be six million job openings for scientists, engineers, and 
mathematicians by 2008. Sixty percent of new jobs will require a solid 
mathematical background. Think about auto mechanics: they need to be 
able to read graphs, understand timing diagrams, and reset 
microprocessors.
    But we're not on a path to fill those six million job openings. 
We're only producing 60,000 engineers per year, compared to over half-
million per year in China and India. I fear that our lack of investment 
in science and math education is creating an innovation gap between our 
country and emerging economies. We must not sit idly by and slip into 
obscurity.
    That's why I'm pleased that we're highlighting your work today. 
Your ability to impart passion is a gift. We all have a story of how a 
great teacher changed the way we thought, not just about the subject 
matter, but about the world. Those present are acknowledged as our 
nation's greatest teachers, and our greatest resource for reaching our 
children with the message: math and science are essential to your 
future success.
    I'm eager to hear your suggestions of how we can help you do your 
job better, and how we can help other teachers become inspirers.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss elementary and secondary math and science 
education. For years, the Science Committee has been actively 
conducting hearings on reform of elementary and secondary education to 
better student performance and has produced quality legislation to 
reverse a trend of inadequate interest and training in the science, 
math, engineering, and technology fields. Today's hearing continues 
this effort and gives us the opportunity to honor a group of teachers 
that have been recognized for their excellence as math and science 
teachers, and to discuss factors influencing recruitment and retention 
of math and science teachers.
    I continue to be concerned that our students are far behind in math 
and science issues. Failure to engage more elementary and secondary 
students in these subjects has the direct effect of decreasing the 
number of math and science undergraduates and, consequently, graduate 
students. It is important to provide stimulating and challenging math 
and science education programs for all students in order to foster a 
leads to the development of a less-informed, less-discriminating 
citizenry. My wife, who is the Assistant Superintendent of the Regional 
Office of Education in St. Clair, County Illinois, often reminds me 
that at the front lines of any reform efforts are teachers. High 
teacher turnover creates a continual demand for new teachers, and those 
teachers require teacher professional education and development. Having 
a qualified teacher in every classroom is a significant contributor to 
student success and ensuring a superior education.
    As Congress debates the Budget Resolution for Fiscal Year 2006, we 
must remember how important and critical these initiatives are for 
students to be competitive in math and science nationally and 
internationally. Each year, we have this hearing to bring us closer to 
resolving a fundamental problem that continues to plague our education 
system. I commend the Science Committee's commitment to improving 
teacher recruitment and retention so we can increase student interest 
levels and their knowledge and understanding of these valuable 
subjects, and I welcome our panel of witnesses and look forward to 
their testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    First, I would like to thank the Chair and Ranking Member for 
calling this hearing. I also want to congratulate the teachers who are 
here before us as witnesses today on their outstanding accomplishments.
    Today, we are here to honor a group of teachers who have received 
national recognition for their excellence as science and math teachers, 
and to explore some of the factors that influence the recruitment, 
professional development and retention of science and math teachers.
    It is very important that we meet to recognize the important 
contributions made by these individuals. Teachers improve the lives of 
children and their families. Teachers also strive to give voice to 
their legitimate professional, economic and social aspirations. They 
strengthen the institutions in which we work, improve the quality of 
the services we provide, bring together all members to assist and 
support one another and promote democracy, human rights and freedom, in 
our nation and throughout the world.
    I believe that education must be our number one national priority. 
In fact, during my almost thirty years as a legislator, I have fought 
to ensure that education is on top of the legislative agenda.
    Without teachers, this nation could not flourish. A skilled 
workforce is the essential fuel to propel the economy and ensure a high 
quality of life. It is absolutely critical to the success of our 
nation's economy that we continue to produce a scientifically literate 
workforce.
    It is for teachers, like the ones who are here today, that we must 
re-emphasize our commitment to education. Now is the time to increase 
education spending. Education is not a luxury item that can be trimmed 
when more enticing budget items beckon. It is an essential element that 
should be our highest national priority.
    It is time to take action to ensure the best possible education for 
our children.

    [The prepared statement of Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    Congratulations to all of the recipients of the 2004 Presidential 
Award for Excellence in Mathematics and Science Teaching. This award is 
the Nation's highest prize for K-12 math and science educators.
    Math and science education is important for the prosperity and 
international competitiveness of our nation. Our ability to develop 
faster computers, better research tools, more sensitive medical 
diagnostic equipment, and more fuel-efficient engines depend on what we 
do now to produce future scientists and engineers. We must foster a 
creative spirit and love of math and science in kids today.
    The work of teachers everywhere inspires these future generations. 
Great educators, such as those being honored here today, are planting 
seeds in the minds of bright, curious, young students. These teachers' 
days are long, their charge is great, but their influence is powerful.
    In Tennessee, two teachers were selected for this highest honor in 
K-12 math and science education. One of them, Ms. Beverly Ramsey, is 
from Viola, Tennessee, and teaches at West Elementary School in 
McMinnville. I would like to extend special congratulations to her. I 
am certain that Ms. Ramsey's energy and love of science are infectious 
in her classroom and have inspired many young scientists.
    I commend the important work that all of you are doing and am 
grateful for this forum to recognize you today.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman and Mr. Ranking Member, thank you for holding this 
positive hearing today.
    I am pleased to welcome our exemplary panelists and awardees, Joyce 
Dodd, Cynthia Cliche, Lonna Sanderson, Cassandra Barnes, and Pita 
Martinez-McDonald. Also, I want to give special recognition to the two 
awardees from my home State of Missouri, Russell Gramer and Gail 
Underwood.
    Thank you for agreeing to speak to the Science Committee today, and 
more importantly, thank you for your hard work and outstanding 
commitment to serving our nation's children.
    Clearly, our nation experiences setbacks in recruitment of teachers 
in mathematics and science as well as declining student performance in 
the same subject areas. Today's testimony is a breath of fresh air at a 
time when we find no simple solutions to either of these problems.
    Please know that this body is committed to finding the policy 
solutions best suited to improve student performance in math and 
science. We have much to learn from all of you and I look forward to 
your testimony.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Chairman Boehlert, Ranking Member Gordon,

    I want to thank you for organizing this important hearing with 
these teachers who exemplify all that is right with our nation. Truly, 
teachers are among the Americans who give the most and ask for the 
least in return. They are true public servants and it is on their 
shoulders that our hopes as a nation really rest. It was the great 
educator and civil rights leader Mary McLeod Bethune who said: ``We 
have a powerful potential in our youth, and we must have the courage to 
change old ideas and practices so that we may direct their power toward 
good ends.'' Clearly, the young students we teach today will be the 
leaders of industry that our nation will depend on in the not too 
distant future.
    Let me congratulate all the 2004 Presidential Awardees for 
Excellence in Mathematics and Science Teaching. Let me especially 
congratulate my fellow Texans in the room: Ms. Lonna Sanderson from 
Austin, TX and Ms. Kathy Skinner from Grapevine, TX, both of you have 
made the great State of Texas proud with your achievement. All the 
Members of this committee will agree that Math and Science are two 
subjects we simply can not ignore in our youth. Our nation has declined 
over the years in these vital subject areas and it is to our long-term 
detriment. Our nation has been known throughout the world as one of 
innovation and discovery, however we may not be able to hold this 
distinction unless we can continue to inspire our youth to push the 
boundaries of what is possible.
    I am especially concerned about the issue of minorities in math and 
science. Minorities are under-represented at every level from 
elementary to graduate school. Lack of preparation in science among 
under-represented minority groups in the early elementary grades 
undermines enrollment and success in secondary-level school programs 
and, ultimately, in college and career choices later in life. In fact, 
To achieve ``parity''--minorities in engineering comparable to their 
representation in the general population--we would have to produce by 
2010 an average of 25,000 per year. Today, universities graduate just 
over one-third that number.
    As the Nation's economic base shifts increasingly toward 
technology, participation and achievement in science and mathematics 
among minority students become increasingly important. Unfortunately, 
minority students, those who form the most rapidly growing portion of 
our school-age population, are the ones that are most left out of 
science and mathematics. By not studying these subjects, both the 
minority students and the United States as a whole stand to lose. The 
minority students are depriving themselves of many career choices, 
including the skilled technical and computer-oriented occupations as 
well as access to high salaried occupations. Further, a basic 
understanding of science and mathematics is essential for all students, 
not only those pursuing careers in scientific and technical fields. 
Adequate preparation in science and mathematics enables students to 
develop intellectually and socially, and participate fully in a 
technological society as informed citizens. The United States can meet 
future potential shortfalls of scientists and engineers only by 
reaching out and bringing members of under-represented minorities into 
science and engineering. America's standing and competitiveness depend 
on it.
    Truly, the areas of math and science are essential to our youth as 
well as to the health of our nation. Young Americans will be the future 
leaders and innovators not only for our nation, but for the world. It 
was author Luella F. Phean who stated: ``Youth is not a time of life, 
it is a state of mind. You are as old as your doubt, your fear, your 
despair. The way to keep young is to keep your faith young. Keep your 
self-confidence young. Keep your hope young.'' I am confident that all 
the teachers we have here today give that spirit of encouragement to 
all their students and our nation will only be richer for it.

    [The prepared statement of Mr. Matheson follows:]

           Prepared Statement of Representative Jim Matheson

    Mr. Chairman, Ranking Member Gordon, I appreciate the opportunity 
to participate in today's hearing. The quality of math and science 
education in our country is an important consideration, and one of the 
best tools that we have in making improvements is the examination of 
current, successful classroom teachers.
    In that vein, I wanted to briefly recognize two of my constituents, 
both of whom are 2004 Presidential Awardees for Excellence in 
Mathematics and Science Teaching.
    Ms. Carol Skousen is a teacher at Twin Peaks Elementary School in 
Holladay, Utah. She is noted for being an excellent classroom teacher. 
The principal of her school notes that she demonstrates concern for 
each individual child, ``sensitivity with which she listens and 
(concern) in responding to inquiring minds.''
    The second individual is Ms. Jennifer Buttars. She teaches in the 
Jordan School District in Utah and she was awarded the mathematics 
prize for our state.
    Both of these teachers exemplify the excellence in education that 
should serve as a model for our school system. They have devoted 
considerable time to improving their classrooms and ensuring that their 
students truly benefit from their energy and devotion to this 
profession.
    I am very pleased that both Ms. Skousen and Ms. Buttars are here 
today for this important hearing. Thank you, Mr. Chairman.

    Chairman Boehlert. Our witness list is very distinguished.
    Joyce Dodd teaches sixth grade mathematics at Bryson Middle 
School in Simpsonville, South Carolina. Ms. Dodd has more than 
30 years of teaching experience. You have already been 
introduced to Cynthia Cliche who teaches first grade 
mathematics, and had the good judgment to go to Mr. Gordon's 
alma mater, at Homer Pittard Campus School in Murfreesboro, 
Tennessee. Ms. Cliche is also a college-level Math Methods 
instructor for Middle Tennessee State University. She has more 
than 20 years of teaching experience. Cassandra Barnes 
teaches--oh, now wait. I am not going to introduce you, Ms. 
Barnes. I am going to yield to Congresswoman Hooley for an 
introduction.
    Ms. Hooley. Thank you, Mr. Chairman.
    And again, congratulations to all of you and for what you 
do every day.
    Ms. Barnes teaches grade school in Clackamas County, my 
home county, and it is wonderful what she does and that you are 
with us today. Thank you for being here. As technology 
continues to advance and improve at our workplace, it places 
more stress on math and science. Ms. Barnes inspires her 
students every single day in math and science. And it is really 
important because so much of that is the future of our country. 
It is the foundation of our new jobs, and so we are delighted 
that you are with us today.
    And again, congratulations to all of you.
    Thank you, Mr. Chair.
    Chairman Boehlert. Thank you very much.
    And for the purpose of an introduction, the Chair 
recognizes Mr. McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    First, I want to congratulate all five of you. In my view, 
you have the most important job in the world. You are the 
educators that shape the future of America, and I want to thank 
all five of you for that.
    It is my honor to introduce to you Lonna Sanderson. She is 
from Texas, my home state, and she is from my hometown of 
Austin. She is also, more importantly, a constituent of mine, 
and I probably shouldn't say this, but she did vote for me, 
which I was glad to hear backstage. And I had--unlike the 
Ranking Member, I had everything to do with her nomination.
    Just kidding.
    She is a third grade teacher at Will Davis Elementary 
School in Austin independent school district. She is in her 
fifth year at Will Davis, but she has been an elementary school 
teacher in Austin independent school district for 25 years. In 
2000, Ms. Sanderson was recognized as a national board-
certified teacher, an achievement she considered the high point 
of her career until now, when now she is receiving the 
Presidential Award for Excellence in Science and Mathematics 
Teaching. Ms. Sanderson is a person who is capable of great 
accomplishments. And this is just what she is achieving by 
giving Texas' young students a world-class education in math 
and science, an achievement we need more of in this Nation to 
cultivate and raise more scientists and engineers in this 
country, more home grown. I wish that every math and science 
teacher could be as gifted as Ms. Sanderson and the rest of the 
recipients of this great honor from President Bush. For 
innovative use of technology in the classroom is truly a model 
for the Nation.
    Mr. Chairman, I look forward to working with you and the 
Science Committee to find ways to address America's teacher 
shortage and to keep kids excited about the great possibilities 
of math and science academics.
    And I would like to end with a quote that appears behind 
me, because I think it says everything about your profession: 
``For I dipped into the future as far as human eyes could see 
and the vision of the world and all of the wonder that would 
be.'' That is what you provide for the youth in the United 
States and in America, and I thank you for it.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you. And eloquently said.
    And our final witness is Pita Martinez-McDonald. She 
teaches fourth grade science at Cuba Elementary School in Cuba, 
New Mexico. She has been a teacher for 30 years.
    Just let me tell you one of the great challenges that we 
face in our jobs here, challenge us every single day, you know 
them all, but one of the greatest challenges I faced was three 
weeks ago when I was going to go out and have dinner with my 
eldest daughter who lives in suburban Virginia. And she said, 
``Dad, do you mind spending a little extra time, because I want 
you to help Palmer,'' that is my 13-year-old grandson, ``with 
his homework?'' And boy, I started to sweat immediately. I was 
afraid it was going to be math or something where I am--as it 
turned out, we had a very pleasant evening, because his 
assignment was to develop a bill to introduce before Congress 
and convince his classmates that it should pass. And so that 
made the challenge a little easier. But boy, I was almost ready 
to get my Rolodex out and start calling you, Ms. Martinez-
McDonald. But thank you very much for being here and for being 
facilitators for this committee.
    What we will do is include your entire statement in the 
record at this juncture, or as you complete your summary of the 
statement. We would ask that you summarize your statement. The 
Chair is not going to be arbitrary, but we shoot for, whether 
it is outstanding teachers or Cabinet officers, we ask for a 
summary of five to six minutes or so, and that allows more time 
for us to give questions.
    But before we do anything, just let me say on behalf of the 
whole Committee, and I would ask that you join me in a standing 
ovation for you, our nation's best.
    Just let me tell you something. We don't start all of our 
hearings with standing ovations for the witness panel.
    Ms. Dodd, you are up first.

     STATEMENT OF MS. JOYCE W. DODD, BRYSON MIDDLE SCHOOL, 
                  SIMPSONVILLE, SOUTH CAROLINA

    Ms. Dodd. Thank you.
    It is indeed my honor to address this committee today and a 
very humbling experience to speak on behalf of my colleagues. 
The single most important step that I think the Federal 
Government should take to improve math and science education in 
this country involves steps taken to improve pre-service and 
in-service training for the teachers of mathematics in 
elementary and middle schools. When math teachers in these 
classrooms do not have a strong background in mathematics, that 
deficit will definitely impact both the content and the process 
of what they are teaching, the how and the what.
    I am one of these teachers who found herself teaching 
mathematics in a middle school by walking in the door with an 
elementary education certificate. My job as a home economics 
teacher was phased out due to budget cuts. I was determined to 
become the best math teacher that I could be. I took stock of 
the situation, and I knew that I was a good teacher. I called a 
friend of mine who happened to be the district math 
coordinator, and I asked her how could I fast track my 
knowledge in mathematics. She gave me two pieces of advice, 
which I followed.
    The first piece of advice was to join the National Council 
of Teachers of Mathematics (NCTM). That organization produces 
high quality teaching materials. It publishes a magazine that 
connects math teachers with the best practices and the best 
math teachers in the country. It is the organization that 
changes the direction of the way math is taught in America. 
Mathematics is a science, and as such, it is a growing, 
evolving discipline.
    The math content that I teach my sixth graders needs to 
prepare them for life in the future. This shift in math content 
is often misunderstood by many people, including math teachers. 
Math is so much more than adding two plus two and getting four 
or teaching a child to struggle through division of two digits 
into three-digit numbers. Those are operations, and they can 
easily be done on a calculator. You can get that at any Wal-
Mart for less than $10. My job is to put the power behind the 
calculator and help that child reason, ``Is the answer correct? 
Does it make sense?''
    NCTM also sponsors top quality educational programs for 
teachers. I have benefited from these programs. I participated 
in a four-day seminar called ``T3,'' teachers teaching teachers 
technology. This course enabled me to become proficient using a 
graphing calculator. I would suggest that this course is an 
excellent course as a model for NSF to fund programs such as 
this. The carrot for me was, of course, learning to be 
proficient with the graphing calculator, but even more 
importantly, I got a free graphing calculator. Teachers will 
work for free stuff. What an incentive.
    The second piece of advice that my friend gave me was to 
take as many math content classes as I could. Now I was 
extremely fortunate. At the time, the place that I was working, 
which was Greenville, South Carolina, our district had the 
foresight and it took the funding to finance courses for middle 
school teachers who lacked secondary certification in 
mathematics to take higher level math classes. Not every 
teacher in the country can be that fortunate.
    These were especially valuable courses, because they were 
taught using best practices. That meant that my college 
professor, Dr. Celia Adair, was teaching me as an active 
learner. That meant that I had an opportunity to use technology 
to discover answers. I was making sense of mathematics myself. 
I could think back to the way Celia taught our class to make 
model lessons for my own students, because we all tend to teach 
the way we were taught. So if we want teachers to be able to 
teach children actively, we need to let those teachers 
experience learning from that standpoint.
    In closing, I would again reiterate that probably the best 
use of federal funds is to sponsor in-service training for the 
teachers we already have in the classroom and, just as 
importantly, pre-service teachers. We know what makes good 
learners. We know they need to be active. We need to expect our 
higher education institutions to be turning out teachers that 
can teach children using active learning strategies.
    Thank you.
    [The prepared statement of Ms. Dodd follows:]

                  Prepared Statement of Joyce W. Dodd

    It is indeed an honor to address this committee and a humbling 
experience to speak on behalf of my colleagues today. The single most 
important step that the Federal Government should take to improve math 
and science education in this country is to improve pre-service and in-
service training for teachers of mathematics in elementary and middle 
schools. When math teachers in these classrooms do not have a strong 
background in mathematics, that deficit impacts both the content and 
the process (the ``what'' and the ``how'') of their teaching.
    I am one of these teachers who found herself teaching mathematics 
in a middle school classroom using an elementary teaching certificate. 
My job in home economics was phased out due to budget cuts; I was 
determined to become the best math teacher that I could become. Taking 
stock of the situation, I knew that I was a good teacher. I called the 
district math consultant, who was a former colleague, to seek guidance 
as to how to ``fast track'' my own math education. She gave me two 
pieces of advice, which I followed.
    The first piece of advice was to join the National Council of 
Teachers of Mathematics. This organization produces high quality 
teaching materials and publishes a magazine that connects math teachers 
with other math teachers. It is the organization that helped change the 
direction of the teaching of mathematics in this country. Mathematics 
is a science, and like any other science, it is growing and evolving.
    The math content that I teach needs to prepare my students for life 
in the future. The shift in math content is misunderstood by many 
people, including math educators. Math is so much more than adding 2 + 
2 or dividing a three digit number by a two digit number. These 
operations can be easily done with a calculator. The key to using this 
technology, which came be purchased at Wal-Mart for under $10, is to 
know if the resulting answer is reasonable, i.e., ``Does it make 
sense?''
    At this point, I would like to briefly explain the mathematics 
standards that, I believe, should be pervasive in elementary, middle 
and high schools throughout this country. Five categories form the 
content area of mathematics: numbers and operations, algebra, geometry, 
measurement and data analysis, and statistics. What makes these 
standards ``come alive'' and give meaning to students is the 
incorporation of the process standards. These standards include problem 
solving, representation, communication, connections, and reasoning and 
proofs.
    In order to incorporate the process standards students need to be 
``actively engaged'' in math. Active learning has students solving 
problems and discussing solutions. Students are able to justify their 
work to one another and to the teacher.
    I challenge my students who want to become better at math to do 
what the NCTM logo suggests, ``Do Math.'' It is my job as their teacher 
to create situations where this happens.
    NCTM also sponsors courses for teachers through various grants. I 
attended one such course taught in our district, T<SUP>3</SUP>. This 
acronym stands for teachers teaching technology. This course enabled me 
to become proficient with a graphing calculator. I would suggest that 
NSF could use this as a model for funding courses for teachers. The 
teacher that attends these courses receives free technology--in my case 
a free graphing calculator--that can be incorporated in her classroom. 
What an incentive!
    The second piece of advice was to take as many courses in 
mathematics as I could. I was fortunate to be in a district that had an 
initiative to improve the content knowledge of mathematics teachers in 
the middle school who lacked a degree in secondary mathematics 
education. Not all teachers work in a district that gives this much 
foresight and financial support to mathematics education. This is where 
the Federal Government could sponsor teacher education courses.
    These were especially valuable courses because the courses were 
taught with the use of ``hands on'' lessons that integrated technology 
in each lesson. The college professor in these classes was modeling the 
way that I should develop my own lessons. These courses also made 
connections within the field of mathematics. I could ``see'' the way 
math should be taught. My college professor was the model that I could 
duplicate in my classes. I think it is extremely important to have 
teachers view other teachers that are actively engaging students in 
learning. We all tend to teach the way we were taught. The implication 
here is that teacher preparation classes as well as teacher in-services 
should employ the teaching practices we desire teachers to use in their 
classrooms.
    In closing, I would like to say that the knowledge for improving 
math education in this country already exists. However, there is a gap 
in the dispersal of this information. Programs that foster ``best 
teaching'' practices will have children actively engaged in 
mathematics. The Federal Government could be on the forefront of this 
dispersal of information by sponsoring courses for the teachers of 
mathematics. The rewards for participation in these courses could take 
the form of stipends, graduate credit or free equipment for the 
classroom. A single teacher of mathematics will influence an 
astonishing number of students. The profit from this investment would 
be astronomical!

                      Biography for Joyce W. Dodd

        <bullet>  Graduated in 1972 from Indian University of 
        Pennsylvania with a degree in Home Economics Education.

        <bullet>  Began teaching career in Greenville, South Carolina--
        teaching home ec. at an inner city public school, Beck Middle 
        School.

        <bullet>  Beck Middle School provided the opportunity to work 
        with regular students as well as a diverse group of children 
        with disabilities--both mental and physical.

        <bullet>  Internalized the philosophy that children learned 
        best when actively engaged with the content.

        <bullet>  Began teaching 6th grade math in 1994.

        <bullet>  Joined NCTM (National Council of Teachers of 
        Mathematics) allowing for growth in the mathematics education 
        profession.

        <bullet>  Updated math education by taking numerous courses in 
        the field of mathematics education--courses that supported the 
        NCTM standards for teaching mathematics, courses that updated 
        technological knowledge and courses that strengthen pedagogical 
        skills.

        <bullet>  Obtained National Board Certification in the Area of 
        Adolescence Mathematics.

        <bullet>  Became math chairman at current location, Bryson 
        Middle School--promoted vertical teaming, horizontal grade 
        level math teaming which lead to a unified math program at 
        Bryson Middle School.

        <bullet>  Worked with other teachers in my district in to 
        create two middle school math curriculum guides each reflecting 
        the NCTM standards.

        <bullet>  Married to a high school science teacher.

        <bullet>  Mother of twins graduating college this year--one 
        like her parents will begin teaching, her brother will pursue a 
        graduate degree in a science related field.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Chairman Boehlert. Thank you very much.
    Ms. Cliche.

   STATEMENT OF MS. CYNTHIA L. CLICHE, HOMER PITTARD CAMPUS 
                SCHOOL, MURFREESBORO, TENNESSEE

    Ms. Cliche. Thank you for allowing me this opportunity to 
speak before the U.S. House of Representatives Committee of 
Science. Special thanks goes to Chairman Sherwood Boehlert for 
his support and Ranking Member Bart Gordon, my Representative 
from Tennessee. This is such an honor, and I appreciate this 
committee's efforts in giving teachers time to discuss topics 
which are so important to our children's future.
    As you have heard, Campus School is a unique school in 
Murfreesboro, because we are the lab school with Middle 
Tennessee State University, so it allows me the opportunity to 
teach the Math Methods course and work with pre-service 
teachers.
    Our students benefit from the involvement of the pre-
service teachers, but also in turn, the pre-service teachers 
benefit from working with our students. For instance, several 
years ago, my class, working with the biology department, five 
pre-service teachers, and parents built an outdoor pond and 
butterfly garden to enrich our first grade curriculum. The next 
year, several EFG, Educating Future Generation, teachers, 
including myself, built an extensive nature trail with many 
more gardens and features around the school. This trail 
provides many opportunities to develop hands-on math and 
science lessons outside the classroom. It is this type of 
activity that can incorporate the National Council of Teachers 
of Mathematics, NCTM, principles for education and learning.
    I believe the six NCTM principles: equity, curriculum, 
teaching, learning, assessment, and technology provide a solid 
mathematical foundation for all students, and they should be 
emphasized, funded, and applied in every classroom in the 
United States.
    Equity sets high expectations for all students, regardless 
of gender, race, and ability. Every child needs to be given the 
opportunity to learn. Sometimes so much emphasis is given to 
the lowest achievers that other children are allowed to plateau 
in their learning. Teachers need to provide enrichment 
opportunities for our higher ability students while 
implementing the remedial strategies for our struggling 
students. We should never give up on any student.
    The mathematics curriculum needs to focus on the five 
content standards: numbers and operations, geometry, data 
analysis and probability, measurements, and algebra. These 
standards provide the content for mathematical teaching. In 
addition, lessons need to be hands-on and provide the 
opportunity for meaningful learning. Too many teachers use only 
a textbook in their elementary classrooms because the 
administration feels it is the easiest and most effective way 
to teach children. Years of research and experience, however, 
show that this is simply not true. Students need to use 
manipulatives and problem-solving techniques to encourage 
active learning. Look into an effective teacher's classroom and 
the children are engaged, talking, and learning. Long gone are 
the days of ditto papers and everyone sitting quietly at their 
desk.
    Teaching requires educators to understand what students 
know and how to challenge them to learn it well. Every child 
deserves a great teacher, and a great teacher teaches the whole 
child. In addition, great teachers increase their learning of 
mathematics and improve their ability to implement an effective 
curriculum in their classroom. They can do this by learning 
from students and colleagues and engaging in professional 
development and self-reflection. NCTM, as well as other 
national organizations, provide regional and national 
conferences to help achieve that goal. Often, it is extremely 
difficult for teachers to obtain funding to attend the 
professional conferences that keep them up-to-date with current 
teaching practices. Professional development needs to be 
encouraged and funded for all teachers. After 25 years of 
teaching, it is apparent to me that there is still so much more 
to learn. Our teachers, like our children, should be lifelong 
learners.
    Emphasis also needs to be placed on creating a positive 
work environment for teachers. If a teacher feels appreciated 
and empowered to make decisions in his or her classroom, it 
will positively affect student achievement.
    At the same time, we need to make the teaching profession 
more attractive to our top students. As a university math 
methods instructor for the past 15 years, I have seen the 
quality of teacher candidates decline. Teachers are being hired 
that would not have been given an interview 10 years ago, and 
our brightest young adults are choosing careers with higher 
salaries and more benefits. My own niece wanted to be a teacher 
and this year, upon entering high school, decided to go into 
the business field simply because of the salary and the time 
commitment.
    Learning requires students to truly understand mathematics 
and to actively build knowledge from new and prior experiences. 
Materials and supports are key to active learning, and our 
focus should be on understanding as well as procedural skills. 
Some of my proudest moments are when my students return to 
visit the classroom. They always remark about the physical 
features such as it looks smaller or have you moved your desk. 
But then they always talk about a special activity that took 
place. It might be the ``Measure Me'' doll that they have made 
that was the same birth weight as they were or the tree that 
they planted along the trail. Active learning enables a child 
to develop a concept in a meaningful way.
    Assessments should support the learning of important 
mathematics and furnish useful information to both teachers and 
students. Assessment should be ongoing throughout the school 
year and teachers should be using various forms of evaluation. 
A lot of attention and funding is focused on standardized 
pencil and paper tests given once a year, but teachers need to 
use a variety of tools such as journals, portfolios, and 
interview to learn about their students.
    Finally, technology is an essential tool in teaching and 
learning mathematics. Our children need to leave our classroom 
technology literate. In fact, even my first graders have their 
calculators in their desks ready to tackle the ``big numbers'' 
that occur when they are solving some higher level thinking 
problems. They also have several opportunities during the day 
to go online and work on websites bookmarked to enhance their 
learning of mathematics. So many schools lack the funds to give 
their students this opportunity.
    As lawmakers, the decisions you make will impact the future 
of our children. Thanks so much for your continued dedication 
in this area. With the challenges our nation faces today, we 
need talented, well-educated children with the ability to solve 
the problems of tomorrow.
    [The prepared statement of Ms. Cliche follows:]

                Prepared Statement of Cynthia L. Cliche

    Thank you for allowing me this opportunity to speak before the U.S. 
House of Representatives Committee of Science. Special thanks go to 
Chairman Sherwood Boehlert for his support and Ranking Member Bart 
Gordon, my Representative from Tennessee. This is such an honor and I 
appreciate this committee's efforts in giving teachers time to discuss 
topics which are so important to our children's future.
    My name is Cindy Cliche, and I teach first grade at Homer Pittard 
Campus School in Murfreesboro, TN. Campus School is the laboratory 
school for Middle Tennessee State University, and it allows me the 
unique opportunity to teach a math methods course and to work with pre-
service teachers.
    Our students benefit from the involvement of the pre-service 
teachers, and they, in turn, benefit by working with our children. For 
instance, several years ago my class, working with the Biology 
Department, five pre-service teachers, and parents, built an outdoor 
pond and butterfly garden to enhance our curriculum. The next year 
several EFG (Educating Future Generation) teachers including myself 
built an extensive nature trail with many more gardens and features 
around the school. This trail provides many opportunities to develop 
hands-on math and science lessons outside the classroom. It is this 
type of activity that can incorporate the National Council of Teachers 
of Mathematics (NCTM) principles for education and learning.
    I believe the six NCTM principles--equity, curriculum, teaching, 
learning, assessment and technology--provide a solid mathematical 
foundation for all students, and they should be emphasized, funded and 
applied in every classroom in the United States.
    Equity sets high expectations for all students, regardless of 
gender, race, and ability. Every child needs to be given the 
opportunity to learn. Sometimes, so much emphasis is given to the 
lowest achievers that other children are allowed to plateau in their 
learning. Teachers need to provide enrichment opportunities for our 
higher ability students and implementing remedial strategies for our 
struggling students. We should never give up on any student!
    The mathematics curriculum needs to focus on the five content 
standards: numbers and operations, geometry, data analysis and 
probability, measurement, and algebra. These standards provide the 
content for mathematical teaching. In addition, lessons need to be 
``hands on'' and provide the opportunity for meaningful learning. Too 
many teachers use only a textbook in their elementary classrooms 
because the administration feels it is the easiest and most effective 
way to teach children. Years of research and experience, however, show 
that this is simply not true. Students need to use manipulatives and 
problem solving techniques to encourage active learning. Look into an 
effective teacher's classroom and the children are engaged, talking and 
learning. Long gone are the days of ditto papers and every child 
sitting quietly at a desk.
    Teaching requires educators to understand what students know and 
how to challenge them to learn it well. Every child deserves a great 
teacher and a great teacher teaches the whole child. In addition, great 
teachers increase their learning of mathematics and improve their 
ability to implement an effective curriculum in their classroom. They 
can do this by learning from students and colleagues and engaging in 
professional development and self-reflection. NCTM, as well as other 
national organizations, provides regional and national conferences to 
help achieve that goal. Often, it is extremely difficult for teachers 
to obtain funding to attend the professional conferences that keep them 
up-to-date with current teaching practices. Professional development 
needs to be encouraged and funded for all teachers. After twenty five 
years of teaching, it is apparent to me that there is still so much to 
learn. Our teachers, like our children, should be life long learners.
    Emphasis also needs to be placed on creating a positive work 
environment for teachers. If a teacher feels appreciated and empowered 
to make decisions in his/her classroom, it will positively affect 
student achievement.
    At the same time we need to make the teaching profession more 
attractive to our top students. As a university math methods instructor 
for the past fifteen years, I have seen the quality of teacher 
candidates decline. Teachers are being hired that would not have been 
given an interview ten years ago, and our brightest young adults are 
choosing careers with higher salaries and more benefits. My own niece 
wanted to be a teacher until she became a senior in high school. Now 
she intends to go into business so she can make a bigger salary. Young 
people want to be able to justify the cost of an education with the 
potential salary. As more of my teaching colleagues begin to look at 
retirement, this concern over the lack of quality, committed teachers 
becomes alarming.
    Learning requires students to truly understand mathematics and to 
actively build knowledge from new and prior experiences. Materials and 
support are key to active learning, and our focus should be on 
understanding as well as procedural skills. Some of my proudest moments 
are when my students return to visit the classroom. They will remark 
about the physical features, such as: how the room looks smaller or 
have you moved your desk. Then they always reminisce about a special 
activity. It might be the ``Measure Me'' doll that they made which was 
their exact birth weight or the tree they planted along the nature 
trail. Active learning enables a child to develop a concept in a 
meaningful way.
    Assessments should support the learning of important mathematics 
and furnish useful information to both teachers and students. 
Assessment should be ongoing throughout the school year and teachers 
should be using various forms of evaluation. A lot of attention and 
funding is focused on a standardized pencil and paper test given once a 
year, but teachers need to use a variety of tools such as journals, 
portfolios, and interviews to learn about their students.
    Finally, technology is an essential tool in teaching and learning 
mathematics. Our children need to leave our classrooms technology 
literate. In fact, even my first graders have their calculators in 
their desks ready to tackle the ``big numbers'' that might occur while 
we are solving some higher level problems. They also have several 
opportunities during the day to go online and work on websites 
bookmarked to enhance their learning of mathematics. So many schools 
lack the funds to give their students this opportunity.
    As lawmakers, the decisions you make will impact the future of our 
children. Thanks so much for your continued dedication in this area. 
With the challenges our nation faces today, we need talented, well-
educated children with the ability to solve the problems of tomorrow.

                    Biography for Cynthia L. Cliche

Education:

Berry College, Rome, Georgia--Master's, Graduated May 1985

Ball State University, Muncie, Indiana--BS, Graduated May 1980

Teaching Experience:

Homer Pittard Campus School (Murfreesboro, TN); First Grade, August 
        1990-Present

Homer Pittard Campus School (Murfreesboro, TN); Sixth Grade, March 
        1990-August 1990

Bellwood Elementary School, (Calhoun, GA); Kindergarten, October 1979-
        May 1989

Professional Service:

Math Methods Instructor, Middle Tennessee State University

Clinical Instructor for the Elementary and Special Education Department 
        at Middle Tennessee State University

Professional Organization:

Member of National Council of Teachers of Mathematics (1993 to present)

Presenter at 2005 National Conference (Anaheim, Ca.)

School Committees:

Chairperson for the Healthy School Index, Campus School (Spring 2003)

Chairperson for the Technology Committee, Campus School

Member of the Curriculum Committee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much. Are you still 
teaching the times tables?
    Ms. Barnes.

  STATEMENT OF MS. CASSANDRA BARNES, OREGON TRAIL ELEMENTARY 
                   SCHOOL, CLACKAMAS, OREGON

    Ms. Barnes. Good morning. I would like to take this 
opportunity to speak to you about what has made a difference in 
my continued professional development as a teacher, which, in 
turn, makes a difference for my students.
    When I began teaching, an experienced colleague and I 
attended a typical one-day workshop designed to give teachers 
ideas to take back to their classrooms. At the end of the day, 
I was bored stiff, and I regretted the $200 I had spent to 
attend the conference. I complained to my colleague, who 
responded, ``Well, I figure if I walk away with one good idea 
to take back to the classroom, it was worth it.'' And I thought 
about that, and honestly, at first, I thought, ``Oh, well, 
okay. I didn't realize that was the way it worked. You are just 
supposed to take one little thing back.'' And the more I 
thought about it, the less sense it made, because I thought, 
``Would it be reasonable for me to teach an entire day with the 
goal of one tiny thing making sense to children?'' No. And 
additionally, the format of the presentation, such as the one I 
had attended, didn't fit with what I believe about how we 
learn. Most of these one-day workshops consist of ``expert'' 
teachers telling us how they do what they do, and we are just 
supposed to go do it. And as attendees, we weren't required to 
think or discuss or apply any of the content. I was definitely 
not an engaged learner.
    So 12 years, and numerous professional development 
opportunities later, I consider myself to be more of an 
informed consumer. I now have high expectations of my 
continuing education coursework. I expect professional 
development opportunities to challenge my thinking, to require 
me to reflect deeply on my practice, and above all, result in 
improved learning for my students. These things don't happen in 
a fun, easy, six-hour workshop.
    Effective professional development for teachers, much like 
deep learning of content for school children, takes time. It 
must be long-term with opportunities to apply new learning in 
the classroom and then reflect on the impact with colleagues. 
It involves planning, implementing, and reflecting on student 
outcomes with our peers, asking ourselves and each other hard 
questions like, ``Why didn't that work? What do I need to 
change? What student-based evidence can I use as data to 
support my conclusions?''
    For elementary math teachers, professional development 
might be additional college-level course work in mathematics, 
taught by professors implementing teaching practices, such as 
those outlined by the National Council of Teachers of 
Mathematics. Many of us were taught mathematics in much the 
same way as the early workshops I attended were taught. An 
expert, the teacher, told us what and how to think, and we were 
supposed to do that and think that way. And many teachers are 
now aware that we need to relearn mathematics the way our 
students are learning mathematics, constructing models, testing 
conjectures, discussing our ideas. Deepening our own 
understanding of the mathematics we teach will allow us to 
better meet the needs of our students.
    Supporting the professional development of pre-service and 
in-service teachers is crucial. I believe in high standards for 
all students. I believe all children can learn mathematics with 
understanding. I believe that the National Science Foundation 
funded, standards-based curricula are improving math education 
for students across the country. However, I know that the 
difference for kids lies in the hearts and minds of the 
teachers who implement the curricula and standards. If the 
Federal Government wants to take steps to improve math and 
science education for our children, they need to focus energy 
and resources on providing high quality professional 
development for our teachers.
    In addition to participating in practice-based professional 
development opportunities, something that has made a difference 
for both me and my students is the modeling provided by mentor 
teachers.
    When I began teacher preparation course work, I already had 
schema in place for what this job of teaching is all about. As 
a student, I had already spent years learning what teachers and 
students did. My early memories of mathematics in an elementary 
school classroom were doing multiplication problems on the 
chalkboard, and there was always a winner in this exercise. The 
winner was the person who solved the problem exactly like the 
teacher told her to, who finished first, and who got the right 
answer. I also remember being told stories about borrowing eggs 
from the teacher next door, and apparently that had something 
to do with subtraction, but at the time, I was pretty confused. 
But I figured my college classes would clear all of that up for 
me.
    What I did not know then was that much has changed since I 
was in elementary school. Research now tells us that students 
learn best when given time and opportunities to construct their 
own understanding of concepts with invented procedures leading 
to deeper understanding rather than imitating a procedure 
demonstrated by a teacher.
    One might expect that my college course work provided 
opportunities for me to review and consider current research 
about teaching. Unfortunately, this was not the case. However, 
I was lucky enough to be influenced very early in my career by 
a truly masterful teacher.
    As a pre-service teacher, I was assigned to spend two days 
per week in Mr. Wong's third grade classroom. I was told that 
this teacher was an excellent math teacher, and I thought, 
``Oh, good. This is where I will learn how to tell the egg 
story and how to explain multiplication clearly so kids don't 
forget which number to put on top,'' but I wasn't prepared for 
what I experienced in this classroom.
    First of all, I never heard Mr. Wong telling anyone how to 
do anything. The students were doing all of the talking. They 
discussed and debated mathematical ideas. They used models and 
manipulatives to explain their thinking. They asked themselves 
and each other questions. Wrong answers were made public and 
used as sites for learning. I was amazed by the conversations 
kids were having. Well, I decided rather quickly that borrowing 
eggs did not matter. I wanted to know how to get my students to 
talk and think like Mr. Wong's students.
    The time I spent in that classroom helped me to re-invent 
my idea of what learning looks like. I learned that kids can do 
amazing things as long as the teacher has some things in place. 
Teachers need to create a culture of collaborative inquiry, 
where students trust themselves and each other to make sense of 
important ideas. Teachers and students must learn to honor 
disequilibrium as an intricate part of learning. Teachers must 
present children with engaging, non-routine tasks, while asking 
questions that help misconceptions to surface, rather than 
``explaining away'' any misunderstanding.
    [The prepared statement of Ms. Barnes follows:]

                 Prepared Statement of Cassandra Barnes

    Good morning Committee Members and esteemed colleagues. My name is 
Cassandra Barnes and I teach second grade in Milwaukie, Oregon. I have 
been teaching for 12 years in North Clackamas School District, which 
serves suburban students just outside Portland. I would like to take 
this opportunity to speak to you about what has made a difference in my 
continued professional development as a teacher, which in turn makes a 
difference for my students.
    When I began teaching, an experienced colleague and I attended a 
typical one-day workshop designed to give teachers ideas to take back 
to their classrooms. At the end of the day, I was bored stiff and 
regretting the $200 I had spent to attend the conference. I complained 
to my colleague, who responded, ``Well, I figure if I walk away with 
one good idea to take back to the classroom, it was worth it.'' I 
thought about that comment many times. Honestly, my first thought was, 
``Oh. Okay. I didn't realize that that was how it was supposed to 
work.'' The more I thought about it, the less sense it made. Would it 
be reasonable for me to teach for an entire day with a goal of each 
child taking away one small thing? No. Additionally, the format of 
presentations such as the one I had attended did not fit with what I 
believe about how we learn. Most of these one-day workshops consisted 
of ``expert'' teachers telling us how they did what they did. As 
attendees, we were not required to think, discuss, or apply any of the 
content. I was definitely not an engaged learner.
    Twelve years and numerous professional development opportunities 
later, I consider myself an informed consumer. I now have expectations 
of my continuing education course work. I expect professional 
development opportunities to challenge my thinking, require me to 
reflect deeply on my practice, and above all, result in improved 
learning for my students. These things do not happen in a fun, easy, 
six-hour workshop.
    Effective professional development for teachers, much like deep 
learning of content for school children, takes time. It must be long-
term, with opportunities to apply new learning in the classroom and 
then reflect on the impact with colleagues. It involves planning, 
implementing, and reflecting on student outcomes with peers, asking 
ourselves and each other, ``Why didn't that work? What do I need to 
change? What student-based evidence can I use as data to support my 
conclusions?''
    For elementary math teachers, professional development might be 
additional college level course work in mathematics, taught by 
professors implementing teaching practices such as those outlined by 
the National Council of Teachers of Mathematics. Many of us were taught 
mathematics in much the same way as the early workshops I attended were 
taught. An expert told us what and how to think, and we were to go do 
just that. Many teachers are now aware that we need to re-learn 
mathematics the way our students are learning mathematics. Constructing 
models, testing conjectures, and discussing our ideas. Deepening our 
own understanding of the mathematics we teach will allow us to better 
meet the needs of our students.
    Supporting the professional development of pre-service and in-
service teachers is crucial. I believe in high standards for all 
students. I believe all children can learn mathematics with 
understanding. I believe that the National Science Foundation funded, 
standards-based curricula are improving math education for students 
across the country. However, I know that the difference for kids lies 
in the hearts and minds of the teachers who implement the curricula and 
standards. If the Federal Government wants to take steps to improve 
math and science education for our children, they need to focus energy 
and resources on providing high quality professional development for 
our teachers.
    In addition to participating in practiced based professional 
development opportunities, something that has made a difference for 
both me and my students is the modeling provided by mentor teachers.
    When I began teacher preparation course work, I already had schema 
in place for what this job of teaching is all about. As a student, I 
had already spent years learning what teachers and students did. My 
early memories of mathematics in an elementary school classroom were of 
doing multiplication problems on the chalkboard. There was a winner in 
this exercise. The winner was the person who solved the problem exactly 
like the teacher told her to, who finished first, and who got the right 
answer. I also remember being told stories about borrowing eggs from 
the teacher next door. Apparently that had something to do with 
subtraction, but at the time I was pretty confused. I figured my 
college classes would clear all that up for me.
    What I did not know then was that much has changed since I was in 
elementary school. Research now tells us that students learn best when 
given time and opportunities to construct their own understanding of 
concepts, with invented procedures leading to deeper understanding, 
rather than imitating a procedure demonstrated by a teacher.
    One might expect that my college course work provided opportunities 
for me to review and consider current research about teaching. 
Unfortunately, this was not the case. However, I was lucky enough to be 
influenced very early in my career by a truly masterful teacher.
    As a pre-service teacher I was assigned to spend two days per week 
in Mr. Wong's third grade classroom. I was told that this teacher was 
known to be an excellent math teacher. ``Oh good, I thought, this is 
where I will learn how to tell the egg story and how to explain 
multiplication to kids so clearly that they won't forget which number 
to put up top.'' I was not prepared for what I experienced in this 
classroom.
    First of all, I never heard Mr. Wong telling anyone how to do 
anything. The students were doing all of the talking. They discussed 
and debated mathematical ideas. They used models and manipulatives to 
explain their thinking. They asked themselves and each other questions. 
Wrong answers were made public and used as sites for learning. I was 
amazed by the conversations the children were having. I decided rather 
quickly that borrowing eggs did not matter. I wanted to know how to get 
my students to talk and think like Mr. Wong's students.
    The time I spent in that classroom helped me to re-invent my idea 
of what learning looks like. I learned that kids can do amazing things, 
as long as the teacher has some things in place. Teachers need to 
create a culture of collaborative inquiry, where students trust 
themselves and each other to make sense of important ideas. Teachers 
and students must learn to honor disequilibrium as an integral part of 
learning. Teachers must present children with engaging, non-routine 
tasks, while asking questions that help misconceptions to surface, 
rather than ``explaining away'' any misunderstanding.
    Not every pre-service teacher has an opportunity to spend time in 
such a classroom. In my opinion, my experiences in Mr. Wong's classroom 
were pivotal. I had a picture of what was possible for my students. It 
soon became clear to me that the role of models and mentors in the 
training of pre-service teachers could influence the beliefs and 
practices of new teachers in a way that college course work could never 
do.
    I have been blessed to benefit from high quality professional 
development and mentoring relationships that have helped me to define 
what I believe is best for children. My experiences have convinced me 
that if we want to support our school children and help them to 
achieve, we need to support our teachers.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much.
    Ms. Sanderson.

STATEMENT OF MS. LONNA SANDERSON, WILL DAVIS ELEMENTARY SCHOOL, 
                         AUSTIN, TEXAS

    Ms. Sanderson. Thank you all for the opportunity to talk to 
you. We really appreciate it.
    Imagine that you are eight years old.
    Chairman Boehlert. Can you get the microphone a little bit 
closer?
    Ms. Sanderson. Sure.
    Imagine that you are eight years old. You enter room 408 at 
Will Davis Elementary School in Austin, Texas for the first 
time. ``This is it. Projects. Hmm.'' You have heard that there 
are lots of projects in third grade, but what about science. 
Will there be science projects? There she is, the teacher. What 
is that she is wearing? A lab coat? There is writing all over 
it. Look, kids' handprints, kids' writing. What does it say on 
her sleeve? ``Science rules.''
    Now, imagine you are that same third grader and it is May. 
You think back over your year of projects and learning, and 
here is what you remember.
    Your Invent Austin project. You noticed a problem. Perhaps 
your dad doesn't like to eat cereal from a box, because all of 
those broken bits and crumbs get soggy and really mess up his 
milk. Perhaps your parents have yelled at you when you wiped 
your ketchup-laden hands on the car seat while you were 
inhaling your fast food dinner on the way to soccer practice. 
You decided to invent something to solve your chosen problem. 
You did research to find out if there was already a solution to 
the problem. There wasn't. You made a model. It didn't quite 
work, so you made another, and maybe several more, until you 
finally had one that worked. A plastic cereal box with a sifter 
at the bottom and another section under it with a trapdoor to 
empty the crumbs. Now dad is happy. A ketchup pocket that is 
attached to the front of the fries container so all you have to 
do is squirt your ketchup into the pocket and dip your fries 
in, one at a time. Voila. No messy hands. You did market 
research to see if people would buy your invention and how much 
they would be willing to pay for it. You created an advertising 
plan. This whole time, you kept an inventor's log of all of 
your work. Finally, you wrote up your invention and drew a 
labeled diagram of it. You submitted it to be judged, and you 
won a medal. Was that your favorite project? Or was it another 
one?
    When learning about sound, you used drinking straws to make 
reed instruments. You devised a way to make the instruments 
play different pitches, but the hardest part was getting that 
reed to work when you blew on it. But you did it. And your 
teacher said you could take it out to recess to play it. Maybe 
all of that noise in the classroom was making her a little 
crazy, but, hey, it was all her idea to do this project.
    But don't forget about making that electromagnet. Who would 
have thought there could be so many ways to make it stronger? 
More winds of the wire, thicker wire, but would using a thicker 
core make it stronger? And then you used your electromagnet to 
make model telegraphs, and you sent messages from your group of 
students to another group. Now that was cool.
    Oh, what about those bean plants? We all thought that bean 
seeds would need soil, water, and light to sprout. Boy, were we 
wrong. They sprouted just fine in a covered container that had 
a wet coffee filter in it. Then that teacher asked us if we 
could continue to grow these bean seeds without soil. We said, 
``No way.'' But she taught us about hydroponics, and then we 
put the plants in a hydroponics unit, and they grew, and they 
grew, and they bloomed, and they made beans.
    That is not all. Ouch. Those crayfish can pinch. But it 
doesn't hurt much. We observed them and learned all about their 
physical structures and adaptations. We watched them and wrote 
about their behaviors. Whoa. Look at that crayfish back up with 
its tail tucked under when we reached toward it. Was it trying 
to scare us off when it reared up with its pinchers spread 
whenever we came near? Yeah. That is one of its behavioral 
adaptations. Another time, we put two crayfish together to see 
what they would do. Oh, my goodness. That little one attacked 
the big one and pinched off its leg. ``But don't worry,'' our 
teacher said, ``it will grow a new one.''
    Well, tomorrow is the big day, the day all partner groups 
show their PowerPoint shows about a planet to our parents. We 
learned a lot about each planet and the sun and about making 
presentations using PowerPoint, how to create a background, 
insert pictures from the Internet, how to add sounds, and how 
to use transitions discriminatingly, as our teacher suggested, 
so that our audiences wouldn't get dizzy watching fade-ins, 
box-outs, cover-downs, and all of those other ones in one show. 
But when she wasn't looking, we tried all of them.
    Ah, it has been quite a year. Yes, there really were lots 
of projects in third grade, and boy oh boy, science really 
rules.
    Now, this picture of third grade science is quite different 
from what I experienced when I was in third grade long ago. But 
it is also quite different from what my students' parents 
experienced not so long ago. Why is third grade science not 
taught by just reading a textbook? Because students learn 
science by doing science, just as real-world scientists do. How 
is it possible to have this kind of science teaching and 
learning?
    Give teachers the science equipment and supplies they need, 
give them and students access to technology, preferably in 
their classrooms and in a computer lab, and give teachers the 
training they need to learn how to teach science.
    In my school district, we have a dual science adoption, a 
textbook and kit-based units. We have a science resource center 
where the kits are housed, refilled with supplies after each 
use, and then delivered to schools on a schedule. We use our 
textbooks to supplement our learning and to learn about topics 
that aren't in our kits, such as the planets. My district also 
subscribes to a video-on-demand service, so that when my 
students read about the characteristics of the sun, I can pause 
during the reading lesson and show a two-minute video clip 
about sun flares, sunspots, and prominences. I have four 
computers in my classroom for students to use, and we also can 
use our computer lab when we all need to do research or prepare 
presentations. Teachers in my district are required to take 
training on all of the kits we teach. During these training 
sessions, we participate in many of the activities that we will 
use with our students, and we learn important tips, such as how 
to pick up a crayfish without getting pinched. Teachers also 
have access to many technology training sessions ranging from 
learning the operating system of our computers to using 
programs such as Inspiration and PowerPoint. Because of these 
advantages, I am able to successfully teach science and to 
guide my students further along the path of inquiry. After all, 
in third grade, science rules.
    [The prepared statement of Ms. Sanderson follows:]

                 Prepared Statement of Lonna Sanderson

    Imagine that you're eight years old. You enter room 408 at Will 
Davis Elementary School in Austin, Texas for the first time. This is 
it! Third grade! Projects. Hmmm. You've heard that there are lots of 
projects in third grade. But, what about science? Will there be science 
projects? There she is, the teacher. What's that she's wearing? A LAB 
coat? There's writing all over it! Look, kids' handprints, kids' 
writing. What does it say on her sleeve? ``Science rules!''
    Now, imagine that you're that same third grader and it's May. You 
think back over your year of projects and learning. Here's what you 
remember:
    Your Invent Austin project. You noticed a problem. Perhaps your dad 
doesn't like to eat cereal from a box because all those broken bits and 
crumbs get soggy and really mess up his milk. Perhaps your parents have 
yelled at you when you wiped your ketchup-laden hands on the car seat 
when you were inhaling your fast food dinner on the way to soccer 
practice. You decided to invent something to solve your chosen problem. 
You did research to find out if there was already a solution to the 
problem. There wasn't. You made a model. It didn't quite work, so you 
made another, and maybe several more until you finally had one that 
worked! A plastic cereal box with a built in sifter at the bottom and 
another section under it with a trap door to empty the crumbs. Now Dad 
is happy! A ketchup pocket that is attached to the front of the fries 
container so all you have to do is squirt your ketchup into the pocket 
and dip your fries in one at a time. Voila! No messy hands! You did 
market surveys to see if people would buy your invention and how much 
they would be willing to pay for it. You created an advertising plan. 
This whole time, you kept an inventor's log of all your work. Finally, 
you wrote up your invention and drew a labeled diagram of it. You 
submitted it to be judged and won a medal. Was that your favorite 
project? Or was it another one?
    When learning about sound, you used drinking straws to make reed 
instruments. You devised a way to make the instruments play different 
pitches. But the hardest part was getting that reed to work when you 
blew on it! But, you did it. . .and your teacher said you could take it 
outside at recess to play it. Maybe all that noise in the classroom was 
making her a little crazy, but, hey, it was all her idea to do this 
project!
    But don't forget about making that electromagnet! Who would have 
thought there could be so many ways to make it stronger. . .more winds 
of the wire, thicker wire, but would using a thicker core make it 
stronger? And then, you used your electromagnet to make a model 
telegraph and sent messages from your group of students to another 
group. That was cool!
    Oh. What about those bean plants? We all thought that bean seeds 
would need soil, water, and light to sprout! Boy, were we wrong! They 
sprouted just fine in a covered container that had a wet coffee filter 
in it. Then, that teacher asked us if we could continue to grow these 
bean plants without soil. We said, ``No way!'' But she taught us about 
hydroponics, and we put the plants in a hydroponics unit, and they 
grew, and grew, and bloomed, and made beans!
    But that's not all! Ouch. Those crayfish can pinch! But it doesn't 
hurt much. We observed them and learned all about their physical 
structures and adaptations. We watched them and wrote about their 
behaviors. Whoa. Look at that crayfish back up with its tail tucked 
under when we reach toward it. Was it trying to scare us off when it 
reared up with its pincers spread whenever we came near? Yep. That is 
one of its behavioral adaptations. Another time we put two crayfish 
together to see what they would do. Oh, my goodness! That little one 
attacked the big one and bit off its leg! ``But don't worry,'' our 
teacher said. ``It will grow a new one.''
    Well, tomorrow's the big day, the day all partner groups show their 
PowerPoint shows about a planet to our parents. We learned a lot about 
each planet and the sun, and about making presentations using 
PowerPoint--how to create a background, insert pictures from the 
Internet, how to add sounds, and how to ``use transitions 
discriminatingly'' as our teacher suggested so that our audiences 
wouldn't get dizzy watching fade-ins, box-outs, cover-downs, and all 
those other ones in one show. (But, when she wasn't looking, we tried 
them all!)
    Ah, it's been quite a year. Yes, there were lots of projects in 
third grade. And, boy oh boy, ``Science REALLY Rules!''
    Now, this picture of third grade science is quite different from 
what I experienced when I was in third grade, long ago. But it's also 
quite different from what my students' parents experienced not so long 
ago. Why is third grade science not taught by just reading a textbook? 
Because students learn science by doing science, just as real world 
scientists do. How is it possible to have this kind of science teaching 
and learning?
    Give teachers the science equipment and supplies they need, give 
them and students access to technology, preferably in their classrooms 
AND in a lab, and give teachers the training they need to learn how to 
teach science.
    In my school district, we have a dual science adoption, a textbook 
and kit-based units. We have a science resource center where the kits 
are housed, refilled with supplies after each use, and then delivered 
to schools on a schedule. We use our textbooks to supplement our 
learning and to learn about topics that aren't in our kits, such as the 
planets. My district also subscribes to a video-on-demand service so 
that when my students read about the characteristics of the sun, I can 
pause during the reading lesson and show a two-minute video clip about 
sun flares, sunspots, and prominences. I have four computers in my 
classroom for students to use and we also can use our computer lab when 
we all need to do research or prepare presentations. Teachers in my 
district are required to take training on all the kits we teach. During 
these training sessions, we participate in many of the activities we 
will use with our students and learn important tips, such as how to 
pick up a crayfish without getting pinched! Teachers also have access 
to many technology training sessions ranging from learning the 
operating system of our computers to using such programs as Inspiration 
and PowerPoint. Because of these advantages, I am able to successfully 
teach science and to guide my students further along the path of 
inquiry. After all, in third grade, science rules.

                     Biography for Lonna Sanderson

    I currently am a third grade teacher at Will Davis Elementary 
School in the Austin Independent School District. I teach all academic 
subjects to my students. (By far their favorite subject is science!) 
This is my fifth year at Davis, and it is my twenty-fifth in the Austin 
School District. I have also taught at Graham Elementary, where I 
taught sixth grade and fourth grade, at Rosedale Elementary, where I 
coordinated a Global Education Magnet Program, and at Winn Elementary, 
where I taught fourth grade. Prior to making my home in Austin, I 
taught in Winder, Georgia and Colbert, Georgia (both third grade); in 
Whitehall, Michigan (kindergarten and third grade); and in New 
Martinsville, West Virginia (Title I Math and sixth grade).
    I received my undergraduate degree in education from East Carolina 
University in Greenville, North Carolina in 1969 and my Master's degree 
in education from the University of Georgia in 1973. I became a 
National Board Certified Teacher in 2000. This was the greatest honor 
of my career--until I was named a Presidential Award for Excellence in 
Mathematics and Science Teaching Awardee!

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much.
    Ms. Martinez-McDonald.

   STATEMENT OF MS. PITA MARTINEZ-McDONALD, CUBA ELEMENTARY 
                    SCHOOL, CUBA, NEW MEXICO

    Ms. Martinez-McDonald. These are very hard acts to follow.
    Anyway, what I would like to do is paint a picture of my 
teaching and my students.
    I teach in Northwestern New Mexico, a rural area. My 
students are Navajo, Hispanic, and Anglo. And because our 
setting is bordering the Navajo checkerboard area where every 
other section of land is Navajo and private land, we have sort 
of a unique setting. My school district covers 1,800 square 
miles. Many of my students travel two hours on the bus one way. 
That is K-12. Often, because our school district has the only 
high school in the area, what families tend to do is they--high 
school students have to go to the Cuba schools, but middle 
school and elementary students can go to Bureau of Indian 
Affairs (BIA) schools. But since parents have a choice, 
students tend to school hop. So we have students that attend 
our school for first to second grade. They go back to the BIA 
schools. They come back to us. If they get in trouble, they 
change from school to school. Paperwork often doesn't follow 
them until the middle of the year. Perhaps you might have no 
background information on a student. So we have a lot of 
diverse problems that we have to deal with every day.
    Some of the things that have really improved my teaching 
and things that have helped me become a better teacher are RSI 
programs, Rural Systemic Initiative (RSI). The Northern Network 
of Rural Schools is a consortia of 27 school districts in the 
northern area. And they have supported us in offering 
professional development training. One thing that I think is 
very important and lacking in many elementary schools is that 
elementary teachers do not see themselves as teachers of 
science and math. They see themselves as teachers of reading. 
And until we get over that hump of teaching everything, we need 
to integrate literacy into science and math. We need to choose 
textbooks very, very carefully so that we are addressing the 
needs of students.
    Another activity besides the RSI is in 1981, the New Mexico 
Museum of Natural History and Science was participating, and I 
believe it was an NSF-funded grant to strengthen rural science 
education. And as part of that program, they came into our 
schools and several schools within the rural areas and truly 
worked with us and found the needs that we had. It was a 
sustained effort. My colleagues talked about one-day workshops. 
I think these--what we are calling now are drive-by workshops 
are not the answer to improve education in the classroom. We 
need sustained efforts, follow up. We need teachers gaining 
content in math and science so that they can have confidence in 
what they are teaching to their students. I think so often that 
teachers not only feel that they don't know enough science and 
math to go beyond the textbook, that they really don't know to 
go beyond the textbook. We focus on reading. Reading is 
everything, and it is everything, but we really have to see 
ourselves as teachers of science.
    One of the questions that was given to us before our 
hearing is what is the biggest impediment that I see to my 
teaching in education. And one of them--I mean, I think the 
main thing is poverty. The students that I teach, for the most 
part, are 99 percent free and reduced lunch. My students are 
ELL, English language learners. They have languages other than 
English in the home. And even students that have English as 
their only language, on our tests that we give them, they are 
not even proficient in English.
    Each day, I try to choose lessons that hook into culture 
and into the lives of my students so that I can use that as the 
support to help them unravel the tangle of life that they see 
before them and they don't understand. In your packets, I 
believe you got an article about one of the communities that 
buses their children into the Cuba schools that just received 
water, not water in the homes, but a central location where 
they, the families, can go and get water and then bring it to 
their home. I mean, these are daily struggles that my children 
deal with, not all of them, but enough, probably one-third. And 
they often go home to no electricity. How can a student do 
homework if there is no electricity?
    I think that when we think about our students and how we 
can improve what we do for them, we have got to see where they 
live. I think that immigrants that come to America have the 
American dream. They know that they can go out and make a 
better life for themselves and their families, but students of 
poverty who live in America have lost the American dream. I 
think that through using math and science that we can use that 
as a hook to give them that dream back.
    Thank you.

                  Biography for Pita Martinez-McDonald

        <bullet>  1973--BA, University of New Mexico

        <bullet>  1981--MA, Antioch University

Teaching

        <bullet>  31 years teaching Cuba Independent Schools, Cuba New 
        Mexico. Grades 3, 4, 5 and multi-age 3/4/5 class and 4/5 class.

Other

        <bullet>  Lead consultant, Northern New Mexico Network for 
        Rural Education-Rural Systemic Initiative Ghost Ranch Teacher 
        Institute (I set up a week long science professional 
        development workshop for K-8 grade teachers. This workshop 
        provides teachers with content knowledge and hands-on 
        activities to strengthen science teaching.)

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                               Discussion

    Chairman Boehlert. Thank you very much. Thank all of you.
    The Chair recognizes the distinguished Chairman of the 
Subcommittee on Research, Mr. Inglis.
    Now let me explain. He was not tardy. This is an excused 
absence, because he was down at the White House in an important 
meeting, and he got up here as soon as he could.
    The Chair recognizes him.
    Mr. Inglis. Thank you, Mr. Chairman. And thank you for the 
excused absence, too. That is very helpful. With these teachers 
here, I would be worried, otherwise I would be marked on my 
progress report.
    It is wonderful to be here and to welcome and celebrate the 
work of these teachers. You will understand, Mr. Chairman, why 
I am particularly excited to welcome Joyce Dodd from Bryson 
Middle School in Simpsonville, South Carolina. It is wonderful 
to have you here. We are very proud of you and very thankful 
for the work that you do with our middle school students.
    And there is a facility not far from Bryson Middle School 
in Greenville County that is the General Electric turbine plant 
that employs about 2,600 people, 1,000 of them are engineers. 
They have a wonderful technology--a number of technologies, but 
one of them involves coal gasification and the ability to take 
pollutants out of the coal before it is burned in their 
turbines.
    The reason I mention that is I was visiting there recently, 
and I asked one of the executives if they had enough engineers. 
And he said, ``No. We could hire 300 more if we could just get 
them.'' Now what that tells me is we have got a challenge. And 
the solution is sitting before us: people who can inspire and 
make science and math real to students. I am a lawyer, and one 
of the things about legal education that makes it a little bit 
easier is that it is--there are always stories. In a good law 
school, the first thing you do is start reading cases, and a 
case is a story. It tells about a person and what happened to 
them and then how the law resolved their problem.
    One of the challenges, seems to me, about math and science 
is making it real. And so the teachers that are sitting before 
us are people who have the passion for making it real. And when 
you make it real and relevant, you make it so people want to 
learn, and students get the passion for math and science.
    It is important to note that General Electric is not alone. 
The Department of Labor estimates there will be six million job 
openings for scientists, engineers, and mathematicians by 2008. 
Sixty percent of the new jobs will require a solid mathematical 
background. And of course, we have got a significant automotive 
cluster in our district, and when you think about it, the work 
on the car, even the auto mechanics, will need to be able to 
read graphs, understand the timing diagrams, and to set and to 
reset microprocessors. All of that involves the work that you 
are preparing your students to do.
    Of course, the challenge, as we know on this committee, is 
that we are not exactly on the path to filling those six 
million jobs I just mentioned. We are only producing 60,000 
engineers per year compared to over a half a million per year 
in China and India. That is a challenge for us. And I think it 
is worth celebrating what you are doing, because I really do 
believe that you are the solution to this, our challenge of 
meeting the need for people prepared for math and science. And 
so I am happy to join my colleagues in congratulating you.
    Chairman Boehlert. Thank you very much. I do appreciate 
that.
    You are all experienced. You all are professionals in this. 
And Ms. Barnes, you mentioned in your testimony that you need 
engaged learners. I hope you sensed that we are engaged 
learners up here, because I have watched my colleagues, and I 
have had a lot of experience in this business. And I will tell 
you, whether they are Nobel laureates or people from the 
business world or high-level officials from the Administration, 
more often than not, if I sort of glance left and right, I see 
colleagues reading something or checking their blackberries or 
something, it is not because they are not really paying 
attention or interested in the subject matter, it is just that 
there are a lot of things on their docket. I have looked left 
and right and you have got us in the palm of your hand. Thank 
you for doing an outstanding job.
    Ms. Dodd, you were the first to have mentioned, but several 
others mentioned, the National Council of Teachers of 
Mathematics. Is that something that everyone belongs to 
teaching math?
    Ms. Dodd. Unfortunately, it is not. One of the reasons is 
the membership costs. And it is unfathomable to me why $78 
would stand in your way of joining such a valuable 
organization, but at our school, I know--we have 12 math 
teachers, and I know that we don't have too many members.
    Chairman Boehlert. Well, you know, I had previous history 
in the real world out there in the business community, and if 
something was considered important to my job, I put it on my 
expense account.
    Ms. Dodd. I don't have one.
    Chairman Boehlert. No, no, no. But what I am suggesting is 
more and more we have got to think about all of the additional 
costs for teachers. And you know, we have, for the first time, 
a tax deductibility for $500 I think it is out of out-of-pocket 
expenses of teachers. What is it? $250? Well, it should be 
$500. All in favor, say aye. Aye. It passes. But $250. It is 
the first time ever. It is recognition that--every educator 
that I have talked with tells me, but particularly elementary 
and secondary education, because the universities, they do much 
better by the faculty. But they say they have a lot of out-of-
pocket expenses, whether it is first or second grade buying 
construction paper, you name it. And so this is something we 
could do. Is--would you be--would that be an eligible item on 
the deductibility or the--all right. Good. So maybe you better 
share that with your colleagues. I can guarantee you we will 
work up to $250. But----
    Ms. Dodd. Well, let me mention this. It is a little--I 
think it is relevant. I am the mother of a prospective first 
grade teacher, and she was home over spring break, and I took 
her to the teacher supply store in Greenville. We were there 
about two hours, and my out-of-pocket expense for her classroom 
was about $350 just for the supplies in her hands that she 
needed to teach her students.
    Chairman Boehlert. I know, and I mean, it just--a lot of my 
best friends are teachers. But they tell me this all of the 
time. And so I mean, I am always asking questions, and then I 
play the student and try to learn from that and try to 
translate that into some meaningful action here in Washington. 
And I might say that we are all partners in this endeavor. You 
don't have an opponent of that tax provision up here, and we 
are all of the same mind. We want to increase it, and I pledge 
to you and all of your fellow educators that we will continue 
that effort.
    I am just curious, Ms. Martinez-McDonald, two hours on a 
bus. And in rural America, that is on the long end, but I mean, 
kids are spending a lot of time on buses coming and going. Is 
that productive time, and is there any way that educators are 
thinking about--I am not trying to add to your burden, but how 
do you use that time most effectively?
    Ms. Martinez-McDonald. It is definitely not a productive 
time. In fact, we have kindergarten students riding on buses 
with high school students, who are not modeling good behavior.
    Chairman Boehlert. I understand.
    Ms. Martinez-McDonald. A lot of the travel is on dirt 
roads. I mean, I had one of my students that comes from this 
community that just got water, and she said, ``We are late 
today because we got stuck in the mud, and we all got to get 
out and push.'' And I think about my own children getting out 
of the bus and pushing it. And you know, she was thrilled. They 
were happy. Everybody was fine. But I don't think people really 
understand what some of these rural communities are dealing 
with. How can these students come to school and think about 
school when they are dealing with so much in their own lives? 
It is hard to get above and beyond that.
    We have, as a district, in the past, some of the wacky 
ideas that we have come up with was perhaps getting, like, big 
buses that have pull-down computers, so that they could access 
lessons or information on the Internet. We, at one point--I 
don't know that it was ever instigated, but they were talking 
about adding TVs to all of the buses so that they could have 
distance learning. But then what level do you target? How do 
you--who maintains that? Who produces the productions for the 
kids to watch?
    Chairman Boehlert. Yeah. Yeah. Yeah.
    Ms. Martinez-McDonald. I mean, it was--it is just so many 
different facets that----
    Chairman Boehlert. I would imagine in your situation a high 
percentage of those students are eligible for the school lunch 
and school breakfast program.
    Ms. Martinez-McDonald. Ninety-nine percent free and 
reduced.
    Chairman Boehlert. Is that a possibility to productively 
use that time to start on the bus with the breakfast or 
something? Or when they get to school, do they----
    Ms. Martinez-McDonald. They come from such a diverse----
    Chairman Boehlert. Yeah.
    Ms. Martinez-McDonald.--setting, and what most of our 
students do is they walk sometimes a mile or two miles to the 
bus stop. They get one bus that takes that group of children to 
another bus stop. Then they----
    Chairman Boehlert. To a hub.
    Ms. Martinez-McDonald.--get on--yeah, to a hub, 
essentially. Then they move to the hub and then come into 
school.
    Chairman Boehlert. Well, they better get used to it at this 
age, because we are all going to hubs for one----
    Ms. Martinez-McDonald. Right.
    Chairman Boehlert.--place or another.
    Ms. Martinez-McDonald. Right.
    Chairman Boehlert. Yeah.
    Ms. Martinez-McDonald. Right.
    Chairman Boehlert. But boy, we can't really come to 
appreciate the great challenge faced by an educator in your 
circumstances.
    Ms. Martinez-McDonald. Well, another----
    Chairman Boehlert. The kids are tired by the time they get 
to school.
    Ms. Martinez-McDonald. Exactly. And we have huge issues 
with attendance. How do you get kids--I mean, how do we get our 
kids to school?
    Chairman Boehlert. Yeah, well, it is a----
    Ms. Martinez-McDonald. I mean, if it is four o'clock in the 
morning, you are getting up out of bed. You are riding your 
bus. And then it doesn't make it to school because of the mud 
or the road conditions.
    Chairman Boehlert. Well----
    Ms. Martinez-McDonald. You know, all of that effort is 
wasted.
    Chairman Boehlert. The red light is on for me, too, and I 
follow it as well as I ask my colleagues to follow it as well 
as we ask the witnesses to follow it.
    Let me congratulate you all for the nice manner in which 
you have summarized your statements. I mean, you each had five 
minutes and you have stuck pretty close to it. So I appreciate 
that.
    Let me give a tip before I go to Mr. Gordon.
    Take this down. There is a website that I will invite you 
to go to. It is www.baseballhalloffame.org. And the reason that 
I mentioned this at the breakfast meeting, the baseball hall of 
fame, I have--which is in my Congressional District, and it is 
part of my passion for life, baseball, but they--I had helped 
them secure funding for a long-distance learning program using 
the Internet creatively. And you know, baseball is a game 
where, if you are really a fan, you are a stats freak. You want 
to know batting averages and everything else, and you want 
comparisons. And the baseball hall of fame devises a very 
creative program that is available on the Internet, and it 
might be a source for all of you in the classroom to just take 
a look at it and see if it is worthwhile to add to your 
curricula, because, you know, some third graders say, ``Boy, I 
know my favorite player is batting .328.'' You know, how did he 
find that out? You know.
    Well, use it.
    Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    And I also want to thank the witnesses for those very good 
statements.
    And I would like to ask if any of you have used any 
materials in developing a lesson plan that you received from 
any federal agency, like the National Science Foundation or 
NASA. And if so, how did you learn about it, and how helpful 
was it?
    Ms. Martinez-McDonald.
    Ms. Martinez-McDonald. Recently, I have been teaching an 
astronomy space science course, and I have used a lot of the 
NASA online materials and downloadable materials. They have 
been invaluable. They have given me resources that I wouldn't 
have access to in the first place. And then we have also used 
our--we recently used DTT monies to buy a portable lab for our 
classroom so that students could get on the incredible NASA 
site and access the information and their links about the 
universe, and they were all able to create what we call 
``webbie books'' and download pictures and information from--
that we--from the NASA site and other sites that they linked to 
their site.
    Mr. Gordon. Well, let me just ask the panel and also 
everyone in the back. Raise your hand if you have used, again, 
NASA or NSF for materials. And of those, has anyone--have they 
been helpful? Have they been beneficial? Okay. Well, let me 
make this recommendation. As I mentioned earlier, two things. 
One, everyone on this panel or this committee, on a bipartisan 
basis, is very supportive of the National Science Foundation 
and the K-12 math formula. You know, I am sure that the 
President is not anti-math and science, by any means, but they 
want to cut this program by half. And so I hope that when you 
are there at the White House today, again, they are not mean, 
ugly folks, but they probably just don't understand the 
importance and how helpful this has been. I hope that you will 
use this opportunity to convey that.
    Let me also say, as a father of an only child, four-year-
old daughter, the motto around our house is that girls rule and 
boys drool. And what I would like to do is just take a quick 
moment, both personally and professionally, to get the panel's 
suggestions. I am sure you have been following the national 
discussion, I think it is more a discussion than a debate, as 
to women's aptitudes in science and math and the lack of women 
at the later stages in that field and also, maybe potentially a 
part of that is some reticence that we understand that girls 
have in class to ask questions, and all of that sort of thing.
    So one, I would like to see, you know--or just what are 
your thoughts about that, and both--what are you seeing and 
what do you think we should do about it?
    Ms. Dodd. I have to answer that one.
    I am the mother of a set of twins, a boy and a girl, who 
both excel in math and science. So I know that if there is any 
difference, it is cultural. It is--I don't think it exists. I 
noticed that in my math class, I don't see a difference between 
the girls and the boys. On the math team that we took to 
competition to Clemson, we had half girls and half boys that 
participated in that. So we had an even amount. Wasn't that 
your question?
    Mr. Gordon. Well, I am sorry. What I have seen or written 
on that area is some of the assumptions are that women--it is 
not a matter of not having the ability and that----
    Ms. Dodd. Right.
    Mr. Gordon.--the top levels, you know, they are as good or 
better than any men. But you know, it is sort of a--it is a 
bell curve--not a bell curve. I guess it would be a U curve, in 
that there are, overall, not as many that are as interested. 
Again, are you finding that? Again, if you are not, that is 
great. And if you are, what do we need? How do we address it?
    Ms. Dodd. Again, I am saying I am not finding that.
    Mr. Gordon. Okay.
    Ms. Dodd. Our math council is sponsored by an engineering 
society. And it is a very challenging competition. We had as 
many girls as boys participating.
    Mr. Gordon. Good. Well, does anybody else have any--do you 
concur or have any different experiences or any suggestions?
    Cynthia?
    Ms. Cliche. I think you see that later. We are all 
elementary teachers, and I think at the elementary level, the 
boys and the girls, you know, they are--it is not that extra 
peer pressure. I think that comes in when they start hitting 
middle school and high school and all of a sudden, for some 
reason, it is our culture or society that there is different 
expectations for boys than girls. And I think that comes later 
in life. I don't feel like I see it as much in elementary 
school as I think if you asked someone in the high school 
level. I think they are going to see that more so at the junior 
high level.
    Mr. Gordon. Well, with the deficiencies that we have in 
mathematicians and engineers, we certainly can't waste, you 
know----
    Ms. Cliche. And I--again, I think it is that--how are we 
treating them? You know. How is society perceiving, you know--
what--when you are looking at society, and you are looking at 
magazines, and you are looking at media, what are you seeing 
out there? Are you seeing girls portrayed as especially gifted 
in science and math? I am looking at my high school years, when 
I was in high school, and in our calculus class, there were two 
females, and the rest were males. You know, something happens 
there. I was never treated as if I were different. I was very 
fortunate. Either that, or I just didn't get it. One or the 
other. So--but something is happening there where the girls are 
getting the perception that there are other things more 
important, such as--and I don't want to, you know, stereotype 
anybody, but there are other things, once they get into high 
school, the dating and the boys and somehow it is--you know. I 
think that is where you are going to see it more. In elementary 
school, my children are gung ho. My girls and my boys.
    Mr. Gordon. If I could just finish up on that.
    Ms. Cliche. Okay.
    Mr. Gordon. In terms of what we can deal with, I guess, 
here, in the NSF and in the NASA materials, is it presented in 
a way that is, you know, neutral, or is it--should there be 
something to have women more out front or--I mean, is there 
anything within the NSF or NASA that we can do to create this 
more positive image? Or is it already there? Are you satisfied 
with it? You are satisfied with what is going on there? Okay. 
Thank you.
    Chairman Boehlert. Thank you.
    And I would just point out a couple of things to the 
gentleman. And you need role models. I mean, if we are talking 
about--I am the father of three daughters and a son, but role 
models. I would point out, and I am sure you are not going to 
miss this opportunity, that when the Shuttle returns to flight, 
the Commander of that Shuttle is going to be Eileen Collins, 
the first time in history a woman commanded a Shuttle. She has 
piloted. The pilot is the number two person. The Commander runs 
the whole show. A graduate of a community college in upstate 
New York went on to the university and became a distinguished 
scientist and a distinguished military career, a colonel in the 
U.S. Air Force, and now she is one of the leading astronauts 
and will be commanding that Shuttle.
    And the second thing, all of the engineering societies 
report the same thing constantly, and boy it is music to our 
ears. On the one hand, the negative part is there is such a 
shortage. We need more. But on the positive side, more and more 
young women are looking at careers in engineering. And that is 
exciting, because there are wonderful opportunities out there.
    The Chair recognizes Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Not to play one-upsmanship, but I am--I have four girls in 
my family, so the girls do rule in my house. There is no 
question about that. But I did get a tour of the Johnson Space 
Center last week, and it is phenomenal what they are doing out 
there. And I encourage you to--I was glad to see the showing of 
hands of all of you who utilize what they have to offer, 
including, I was told to get astronauts out to some of the 
schools to energize our young people to get involved in math 
and science. And I think any time you get an astronaut to come 
talk to your kids, that is going to be a home run.
    So I wanted to talk really briefly, in 1983, President 
Reagan appointed a Blue Panel Commission that released ``A 
Nation At Risk.'' In the report, it states, ``If an unfriendly, 
foreign power had attempted to impose on America the mediocre 
education performance that exists today, we might well have 
viewed it as an act of war.'' And that was a fairly disturbing 
finding. I think we have made progress, but I think we can do a 
lot better. I would be interested to hear your input on how we 
can do better.
    But since Ms. Sanderson is a constituent of mine and 
supporter, I want to put her on the spot. As you know, in our 
hometown of Austin, we are very fortunate to have a lot of high 
tech in the area. We are the home of Dell Computers, Applied 
Materials. We have a presence there. And I was really intrigued 
by your innovative use of technology in the classroom. And I 
was hoping you could maybe elaborate on how you use the 
technology as a tool to get the children interested in 
learning, because as Mr. Inglis had talked about, when I talk 
to these high tech companies, they want to import more and more 
scientists. In fact, they asked us for 20,000 visas so we could 
import scientists from India and China. And it is just 
astounding to me that we can't do that in our own country.
    So maybe--I know it is a very broad question, but if you 
could elaborate on, perhaps, getting children interested in 
this area of technology. Were the jobs--you know, we have the 
jobs, but we just can't find the people in our own country to 
fill them.
    Ms. Sanderson. In my classroom, we use technology just as a 
tool. It is not ever used for entertainment, but you only use 
the computers when you need to use them. We use videos that 
enhance our learning, that teach something that we need to 
learn. And the students are free to use those pieces of 
technology whenever they need them. I mean, they don't even 
ask. They just get up and go use it, and they sometimes have to 
wait, because somebody else is on the computer, and you better 
not go to the bathroom, because you are going to lose your 
spot.
    But as far as getting them interested in jobs, third 
graders are already interested in all of those jobs. I don't 
know what the problem is in keeping their interest in those 
jobs. I don't know what we can do about that.
    Mr. McCaul. And that is what the report seemed to indicate, 
that the younger ages, they do quite well. It is when they get 
to K-12 is where you start to see the decline.
    Ms. Sanderson. All of the third grade girls and boys love 
science and math, and if they don't love math, I make them 
write ``I love math'' on their papers, because some of them 
have math phobia, and it is boys and girls. And if they have 
math phobia, by the time they leave my classroom, hopefully 
they love math, because they have written ``I love math'' all 
year.
    Mr. McCaul. And I guess to keeping their interest in the 
older years, I don't know what the answer, quite honestly, is 
to that. I know that, you know, a lot of the schools in our 
area are fortunate enough to get technology donated to the 
schools----
    Ms. Sanderson. Right.
    Mr. McCaul.--and I don't know if that is true for the other 
teachers on the panel, but I think that does peak an interest 
as well.
    Are there any other comments on this issue?
    Ms. Martinez-McDonald. I would like to add to that.
    I think it goes back to--I think all of the people in this 
room, science and math are foci for their classrooms. But I 
don't think, generally, in many classrooms, that that is the 
case. I think elementary teachers feel that they don't have 
enough background knowledge and content knowledge. And so many 
students get science, especially science, after everything else 
is done. They have done social studies. They have done 
everything else. And then, if they get an hour of science a 
week, I think that would be a regular occurrence in many 
classrooms. And I think that is where we need to give 
elementary teachers, especially, that background knowledge so 
that they feel confident so that we can get children involved 
in science all of the way through elementary schools, so that 
they, when they get to the middle schools and high schools, 
they feel confident that they have got the background that they 
need and then they can progress. It is not just catch-up. I 
think that is what many students are doing when they get to 
middle school and high school. They are going, ``Oh, I don't 
know this. I don't know that.'' And it is because they haven't 
had a good foundation in elementary school.
    Mr. McCaul. There is--it is not a priority on the 
curriculum, and the teachers don't have the right background. 
Is that what I am hearing?
    Ms. Martinez-McDonald. Yeah.
    Ms. Sanderson. In Texas, that is not true. We give a 
science test in fifth grade now, so it is a big priority to 
teach science. And that is maybe one advantage of giving a 
state standard test in sciences that it makes it a focus for 
the school districts to make sure that all of the kids do learn 
it, because the test tests what they have been taught from 
second grade through fifth. So if the second grade teachers 
don't do their job, then the fifth grade students won't know 
what is on the test.
    Mr. McCaul. Well, that is good to hear.
    Ms. Sanderson. But--so, I mean, in spite of the 
disadvantages of having to give all of these tests, there are 
some possible advantages to them.
    Mr. McCaul. Yeah.
    Ms. Dodd. I would like to add that I think one place that 
we could impact a difference is in our teacher training 
programs. I think when we send our kids to college, and if they 
choose education, their math class and their science class 
should be compatible with that of math and science majors. It 
shouldn't be a special course, elementary ed., that if you 
change your mind you can't use that for anything. What does 
that tell us about the content of that course? And I think that 
is an easy fix, and I think we need to hold responsible for 
that. And I think that, oftentimes, elementary teachers feel 
they don't have the background when they, indeed, could have 
had the background.
    Mr. McCaul. Well, I see my time has expired, but I do want 
to thank the panel for everything you do and praise, you know, 
the work that you are doing. It is so important.
    Thank you, Mr. Chairman.
    Chairman Boehlert. I thank you.
    The Chair recognizes Ms. Hooley.
    Ms. Hooley. Thank you, Mr. Chair.
    I would like to also welcome Heather Combs from Oregon 
today. Again, congratulations to all of you.
    I want to start out with Ms. Barnes. You talked about Mr. 
Wong's classroom. And I would like to know, in the professional 
and development workshops and in-service training that you have 
participated in, what percentage is focused on this kind of 
collaborative learning that you experienced in Mr. Wong's 
classroom?
    Ms. Barnes. Well, I would say now that I am, you know, an 
informed consumer----
    Ms. Hooley. Yeah.
    Ms. Barnes.--I won't stay in a professional development 
setting where it is not going to meet my needs. So the courses 
that I register for and stay for----
    Ms. Hooley. Yeah.
    Ms. Barnes.--are classes where all of the teachers who are 
participating are actively engaged, and they are asking to 
reflect on their practice, and they are asking to--they are 
being asked to consider new research in education and how they 
can use that information to change learning for the students in 
their classrooms.
    I would say that, besides the fact that Mr. Wong painted a 
picture for me of what is possible for students----
    Ms. Hooley. Yeah.
    Ms. Barnes.--he also gave me a lot of direction in what is 
high-quality professional development, how does that look, and 
how does that carry over into your practice. But it is 
something that--I just feel extremely fortunate that I was able 
to have this experience early on in my career, because I have 
many colleagues throughout my district and state that the first 
time they take a course like the ones I am talking about, they 
are just so energized and overwhelmed and saying, ``This is 
amazing. This is great. I have needed this for all of these 
years.'' There is just maybe not enough to go around. It is--
for the people who plan the professional development that 
works, it is hard work for those people, just like teaching the 
way that we believe is hard work for us.
    Ms. Hooley. But my question is, and any of the rest of you 
can answer this as well, how often do you find the in-service 
training or the professional development with that kind of 
energy and that actively engaged? I mean, are those hard to 
find or are those common anymore?
    Ms. Barnes. Yeah, I think if you know where to look, then 
you can find it.
    Ms. Hooley. Now wait a minute. If you know where to look, 
but if--I mean, if there is a list of things that a teacher can 
go to for in-service training or for professional development, 
how hard is it to find those really good professional 
development courses?
    Ms. Barnes. See, I guess I have learned to look at who the 
presenters are. You know, if it is a professional development 
opportunity that was developed by, you know, the EBC, or there 
is a local organization--non-profit organization, a couple in 
Portland, actually, that I know that if I take a course, it is 
going to be high quality. And there are some that I know I need 
to steer away from them. But I think when you are a beginning 
teacher, you need to have somebody tell you.
    Ms. Hooley. How would you know? Yeah.
    Ms. Barnes. You need to have a mentor to say, ``You know 
what? Don't spend your money there.''
    Ms. Hooley. Okay. And then--and anyone else can talk about 
that that wants to, because I would really like to know how 
hard that is to find one of those classes.
    And the second question I have is, if there is one thing 
the Federal Government could do to particularly grade school 
teachers to get them excited about math and science and 
teaching math and science in their classroom--because I know a 
lot of teachers have a phobia against math and science--what 
would be the one thing we could do to entice teachers to be 
involved, grade school teachers, in math and science and to 
sort of get rid of that phobia? What would that be?
    Ms. Cliche. I guess I will answer.
    Ms. Hooley. Okay.
    Ms. Cliche. And I have been talking. It is great having so 
many colleagues around, so of course, knowing I was going to be 
here today and representing them, I did get a lot of input----
    Ms. Hooley. Good.
    Ms. Cliche.--and I think I have gotten some input for that 
question.
    Ms. Hooley. Good.
    Ms. Cliche. One thing that we have kind of thought about is 
it would be great if we had a math and science specialist in 
each elementary school, because I think that is almost like 
having your professional development right there. I think, you 
know, when I started teaching, I almost felt isolated, that I 
was the only one that thought this way, that taught this way. 
And then, as I started branching out and meeting other 
colleagues that taught and thought that way, it really helped 
me. So if you have a math and science specialist, maybe, in the 
elementary school, not just at the county, because there are so 
many schools now in an area, that could come in and actually do 
some of the lessons and do some of the teaching and help you 
and find the professional development that you need that is 
important to you that you see. I think that would be a great 
step.
    Ms. Hooley. Okay. Any other comments?
    Ms. Sanderson. In our school district, we use 
investigations in data, time, and space, which is a pretty 
innovative math program, but we have used it for several years. 
And it was funded through a government grant. I am not sure if 
it was Eisenhower or NSF or--it is NSF?
    Ms. Hooley. NSF.
    Ms. Sanderson. And it was a--and part of the grant process 
was there had to be a professional development component. 
Therefore, every teacher in the district has to go through 
professional development to learn how to teach it. And then you 
become comfortable with teaching it, if you weren't comfortable 
with teaching math, other than through a textbook. So if the 
government requires, in all of its grants, that there be a 
professional development component and they actually have--they 
collect data on this professional development every time we 
have one. So I think that just requiring that makes sure that 
the districts then provide quality professional development to 
ensure that the teachers aren't phobic about it. And we have 
the same thing for our science. We are required to have science 
training before we can teach the kits. They won't even send the 
kits to our school until we have the training.
    Ms. Hooley. Thank you.
    Chairman Boehlert. Thank you.
    The gentlelady's time has expired.
    The distinguished Vice Chairman of the Full Committee, Mr. 
Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman. And thank you for 
having this hearing. I want to thank the panelists for being 
here today. I think this is an important hearing, and it is 
something that when you look at the test score numbers from 
around the world and you compare ours to international scores, 
this has probably already been mentioned, we do very well in 
the elementary grades. By eighth grade, we are starting to lose 
ground, and by the time they get to twelfth grade, American 
students score pretty poorly. And we still haven't really 
gotten our arms around why.
    I do, however, believe that success leaves clues. And if 
you look at what is happening at universities and in many 
communities every summer, there are baseball camps, there are 
basketball camps, and there are football camps. But I don't see 
enough science camps, and I don't see enough math camps. And I 
think there has to be a way that we can encourage our 
universities, encourage private enterprise, and frankly, with a 
little bit of help from the National Science Foundation and 
federal and state taxpayers' dollars, we ought to be able to 
encourage more of that. And that is just my editorial comment. 
And everywhere I--we are doing some of that in my district, but 
I must confess, not nearly enough.
    But the real question I wanted to get to is that we have--
for example in the town that I live in, Rochester, Minnesota, 
we have a very large number of people who have advanced degrees 
in math and science, and that is because we have a little 
medical practice that was started by two brothers by the name 
of Mayo, and we also have the top research facility for IBM. We 
built the world's fastest supercomputer now in Rochester, 
Minnesota. But several years ago, there was an outreach program 
to try and encourage more of these people with advanced degrees 
in math and science to serve either as mentors or some of them 
who had retired early or for one reason or another to be able 
to teach. And I will be diplomatic. The teachers unions took a 
somewhat dispassionate view of that whole idea. Now I know that 
there are several states that have alternative certification 
programs, and I would like, Ms. Dodd, for example, you started 
out, I think you said, teaching home economics, and you moved 
into math. How difficult was it for you to get recertified, 
because the problem is we have Ph.D.s in mathematics and they 
can't teach mathematics at the local high school?
    Ms. Dodd. I am glad you asked me that question. And that is 
probably one of the reasons I have pursued this particular 
nomination or award was because I wanted to validate my worth 
as a mathematics teacher.
    I was very lucky to be able--because I really, honestly, 
believe that being a teacher is essential, but I don't want to 
diminish the need for content. And I am a middle school 
teacher. I see myself more as a middle school teacher than an 
elementary teacher. This is one of the few times I am not with 
my buddies, the high school teachers. Normally, that is who I 
am with. And I think content is essential. But I think it is 
easier to teach a person content sometimes than it is to teach 
them how to teach.
    So I think that retooling and retraining existing teachers 
who desire to be in a mathematics classroom is a really good 
investment, and I have a national board in early adolescence 
mathematics, which requires content knowledge. And I absolutely 
do not want to diminish the necessity of content knowledge if 
you are going to teach mathematics. I have to know what comes 
after sixth grade math. It will affect how I teach math. 
Knowing my high school friends, knowing that it is more 
important that my kids understand fraction operations to be 
successful in algebra than it is integers was very helpful to 
me in preparing my children. My buddy on my team is a science 
teacher who was an engineer. So he is coming to our school from 
an alternative program, also. He is a dynamic teacher. He has 
the heart of an engineer, but the mind of a teacher. He 
sponsored a robotics club with our school, and we actually got 
to state competition. And so I absolutely welcome alternatives.
    I was accepted in the math community and given a chance to 
grow, and I think that, as teachers, we need to accept people 
from outside communities and give them a chance to grow.
    Mr. Gutknecht. Thank you.
    Ms. Dodd. So I agree with them.
    Mr. Gutknecht. Anybody else want to comment on that, on the 
ability of people from the outside to come in and be able to at 
least contribute?
    Ms. Martinez-McDonald. I would like to share an experience 
that I have had. New Mexico has various labs, and a few years 
back, all of the labs had what was called the Cyad program 
where they coupled scientists in the field and retired 
scientists with schools, and they came into our schools once or 
twice a month. They provided background knowledge and content 
as well as activities in the classroom and supported us. 
Unfortunately, the program was phased out, but I found that 
very helpful, because it was somebody that I knew I could call 
for support. They would be in the school. They got to learn 
kids. They realized that having the science had nothing to do 
with the teaching. And they provided the science that I lacked, 
so that I could do the teaching that----
    Mr. Gutknecht. Thank you very much.
    Chairman Boehlert. Thank you.
    Mr. Davis.
    Mr. Davis. Mr. Chairman, thank you very much, and Ranking 
Member, for having the hearing today and certainly the five 
panelists who have given great testimony and all of the members 
from throughout the different states that are here to join and 
participate in the activities you have had since Sunday, and I 
think will probably last through this coming Saturday.
    I grew up in a rural area. My first school was a one-
teacher school where we walked. It started in 1948. As you look 
at the teaching in 1948, it was basically three ``R''s. I 
graduated from high school in 1962, and when I graduated from 
high school in 1962, I had heard a young man a year earlier, or 
a year and a half earlier, say, ``We will send a man to the 
moon and then safely return him by the end of this decade.'' 
And there was no science being taught about how we go to the 
Moon in 1962 or in 1948 when I started with school. We have 
seen a tremendous change and a huge amount of knowledge that 
has occurred since both my wife and I went to school at a place 
called York High School in Jamestown. It was built by a fellow 
by the name of Sergeant Alvin C. York from Pall Mall, where I 
currently live today and where I was born and raised. When he 
dedicated that school, he said, ``I dedicate this school to the 
children of Pall Mall, so they can enjoy the liberating 
influences of an education denied me in my youth.'' Liberating 
influences of an education that he was denied as he traveled 
throughout the world during World War I and became a great hero 
for America, a movie of which has been made of his life. We see 
in someone who had the vision to be sure that education became 
a part of our lives.
    I applaud each of you in this room for how you are 
imparting to our young individuals. I have--as my wife and I 
watched our children go to school, we realized how much more 
education and knowledge was available to be taught to them than 
she and I had obtained or were taught when we were going 
through school. We now watch our five grandchildren, of which 
four of those are in school, two in Murfreesboro, our oldest 
grandson, who will be 15 on August the 1st, is an eighth grade 
graduate there last year, and Alexa is still there at McFaden. 
But we see such a change in education and teachers so 
committed. My wife teaches second grade. She taught first grade 
for 14 years. My daughter, Lynn, teaches in the school systems 
in Bart Gordon's District. All of my children live in Bart 
Gordon's District for some reason. They can't vote for their 
daddy. And I have a son-in-law that teaches, and my oldest 
daughter actually teaches home-schoolers. But the two children 
I just mentioned go to public schools at McFaden and 
Murfreesboro.
    So there has been such a change from the three ``R''s to 
what we have today and the challenges that we have had. Growing 
up in a rural area, Ms. Martinez-McDonald, is a challenge. The 
bus left my home at six o'clock for the eight o'clock school. I 
was the first on the bus and my sisters and brothers were, 
because my mother and father had actually drove the bus. One of 
them would. Each morning, we would change at the elementary 
school and then go up the mountain to Jamestown.
    So as we look at trying to change or to improve how we 
teach our students and how we teach our young men and women, 
our young students, the children that we are teaching, I know 
that that is a tremendous challenge for you. Math and science 
was something that was always--it was--it seemed to be away 
from my grasp, but I always wanted to reach out and be a part 
of science and math. I applaud your efforts, how you impact the 
lives of future generations of this country. And I don't agree 
that America has got the worst education system in the world. 
We absolutely are the only Nation in the world that has the 
economic strength that we have and the military strength that 
we have. No nation can even equal us. And why? It is because of 
educators like you in this room and throughout our systems 
throughout the Nation. Oh, we can complain and we can talk 
about areas where we need to improve, and we should always 
strive to do that, but because of you, America is where it is 
today.
    I tell young students, when I visit them in schools, that 
you can have a Maserati, I don't know what that is. That is a 
fine car, they say, or you can have the biggest mansion in the 
world, and if you can't economically continue to fund it, you 
will lose all of those assets you think you have. But an 
education is an asset that you never can lose, and you can 
always use that. And you are the ones who make that happen.
    I have a teacher here today from a rural area similar to 
where I grew up, Ms. Beverly Ramsey, from the West Elementary 
School. She is actually from Viola, which is about the same 
size as Pall Mall where I grew up in Fentress County. And I 
applaud her and congratulate her, as each of you should be 
congratulated, for being able to win the competition, and I am 
sure it is pretty stiff, to be here today.
    My question, and I am about to run out of time, is this. 
How has ``No Child Left Behind'' impacted your ability to 
teach? Do either of you want to answer that? And here is why I 
ask that. Here is why I ask that. I think we have to look at 
achievability of each student and be sure that that child is 
not left behind. And if we don't place an achievability as well 
as accountability, we could never reach an accountability 
level. So how has it impacted?
    My time is running out, I guess, so that is--we----
    Chairman Boehlert. Your time has run out. But just let me 
say that I think we all embrace the subject and the theme that 
no child should be left behind. And let me point out, we are 
spending more on education in America than ever before in the 
history of the Republic, and we need to spend more. It is a 
very wise investment.
    Mr. Davis. Saved by the bell.
    Chairman Boehlert. Yeah.
    Here is what happens. We are going to have a series of 
votes now, so we will go next to Dr. Bartlett, a Ph.D., I might 
add, Dr. Bartlett who is deeply and passionately interested in 
this subject matter.
    And then I think if he can keep to the five-minute limit, 
we will get to Mr. Honda, and then we are going to have to end 
this, because we will go over for a series of votes, and we 
can't keep you around all day. And it might be a half-hour to 
45 minutes before we can get back, and that would be 
disruptive.
    So Dr. Bartlett.
    Mr. Bartlett. Thank you very much.
    I want to apologize for a schedule that tries to cram five 
days of work into less than two days this week, which meant 
that at 10 o'clock this morning, I was supposed to be in four 
places at once. So I am glad that I am finally able to get 
here.
    In another life, I spent 24 years as a teacher. I worked 
for a number of years as a scientist. And I have had a growing 
concern about two things in our country, both of which are 
culture-driven. One of them is our inability to attract enough 
students to science, math, and engineering. As an example of 
the portent for the future, we graduate about 70,000 a year. 
The Chinese graduate 200,000 a year, roughly three times more 
than we. And India graduates 150,000 a year, a bit more than 
twice what we graduate. And that is to say nothing about the 
fact that about half of all of the graduate students in 
science, mathematics, and engineering in our country are 
Chinese and Indians. So the discrepancy is even bigger than 
that.
    I am very much concerned that for the short-term, this 
poses a real threat to our economic superiority. We will not 
continue to be the world's premier economic power if we can not 
attract enough high-quality students to science, math, and 
engineering. And by the way, the bright, young minds in our 
country today are increasingly going into what I tell them are 
potentially destructive pursuits. They are becoming lawyers and 
political scientists.
    And you know, I have two questions. The first staff-
generated question has to do with the fact that our kids don't 
start out behind. In the fourth grade, they are about on par 
with students in the rest of the world, and in the eighth 
grade, not so bad, and by the twelfth grade, they have fallen 
way behind. In a recent survey, worldwide, we were very 
thankful for Sri Lanka and Cyprus, because they were the only 
two, out of 21 countries, I think, whose students fared worse 
in science, math, and engineering than ours did. You know, you 
get what you appreciate in a society. And I will believe that 
our culture is changing when the White House invites academic 
achievers and appreciates them the way we appreciate athletic 
achievers in our country. And you know, when you are calling 
bright young men in our schools ``geeks'' and ``nerds'' and 
pretty girls won't date them, and when pretty girls have to 
play dumb so that they can get a date, don't you think that 
this sends the message that there may be something wrong in our 
society that we have got to change our culture?
    So I am very much concerned about two things.
    One is what do we have to do so that we can attract more 
bright, young people to these careers? And what do we have to 
do so that we are doing a better job of educating? It is 
awfully tough to take a student from high school, who is at the 
bottom of the barrel in comparison with students from most 
other industrialized countries, and then to turn out a really 
quality graduate from our graduate schools. What can we do to 
attract more, and what can we do to make sure that we have--
that we do a better job? Because it is not our kids that are 
failing, it is we who are failing. They start out okay, and the 
longer they go to school, the worse they get. Doesn't that send 
a message?
    And by the way, Mr. Chairman, the 24-year fall in SAT 
scores follow the 24-year increase in the size and influence of 
the federal Department of Education. Do you think there might 
be a cause-effect relationship? I won't ask you to answer that 
question.
    But my two questions, what do we have to do to attract 
more, and what do we have to do to do a better job of training 
them?
    Chairman Boehlert. Identify yourself, if you will, for the 
record.
    Ms. Jones. I am Linda Jones, and I am from Alabama.
    Our state has undergone a lot of changes recently. Of 
course, with ``No Child Left Behind,'' and elementary teachers, 
especially in the K-3 area, we have focused so heavily in 
reading and making sure that our children are on target, and it 
has cost us, I think, in the science area. And we have also 
focused heavily in the math. But in Alabama, we have been 
looking at changing how we teach. And a lot of times, we are so 
squeezed into the afternoon to teach the math and science, that 
we don't take the time, or we don't have the time, to lay out 
all of the manipulatives and the things that turn children on 
and help them understand the concepts and really know what they 
are doing. Instead of just being able to add, why are we adding 
and really what are the concepts behind it.
    We are working on what we call an arts program, or a 
testing program that will test the science. I am getting a 
little nervous here, having to stand. I have to take a deep 
breath.
    But one of the things that we are working on is AMSTY, and 
AMSTY is a math and science and technology program. And the 
first step that we are having to do is go back, take our 
teachers, and retrain them, train them in stepping back instead 
of being the teacher, just be a facilitator and putting out the 
manipulatives and letting the students work with those 
manipulatives and discover new ideas themselves. And that takes 
retraining. And it takes time. And then it takes supplies. I 
did not have the supplies that the----
    Chairman Boehlert. It takes resources, too.
    Ms. Jones. That is right.
    Chairman Boehlert. We are just running very short on time, 
and I want to give Mr. Honda the opportunity to have a few 
observations.
    So thank you very much for that intervention.
    Ms. Jones. Thank you.
    Chairman Boehlert. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman and Ranking Member. I 
appreciate this forum, and let me tell you, as a school teacher 
myself, I appreciate what it is that you do. I am a science 
teacher. I taught high school, so I had to wait for your work 
to be done. My wife, since 1965, was a kindergarten teacher, or 
what I say, ``kindegarten'' teacher. And as her husband for 
many years, I have to get used to the word ``no'' more than 
once. She couldn't ever say ``no'' once. She says, ``No, no, 
no.''
    Having said that, I would like to associate myself with all 
of the comments that the Chairman and the Ranking Member had 
shared with you.
    But just to let you know that we understand what it is that 
you have to do on a daily basis, such as put up with more 
policies that policy-makers pass and place upon your shoulders 
without the due compensation, or having assumed that 
compensation will be there once we pass a law. We need to hear 
your voices constantly saying, ``No unfunded mandates. If you 
are going to make a promise, please keep them.'' This committee 
is one of the most bipartisan-focused committees that there is. 
We understand, also, that math and science, in itself, are not 
the only curricular activities that go on in a classroom and 
that integration and not compartmentalizing math and science is 
critical, too, and that is what K-6, K-8 folks do, and they do 
that well. We just haven't figured out, on a national basis, 
how to put together teacher training programs that have a 
degree, a professional degree that recognizes that.
    Another thing is that I think we understand the distinction 
between parity and equity. You are given funds to deal with 
things in the concept of parity, but we say equity. And ADA is 
parity, not equity, because you know that each child has needs 
and each child has different kinds of needs and different 
amounts of money that would support that child's access to 
equal opportunities in education. So we understand that. And 
our struggle is to try and figure out how we keep in touch with 
you so that we translate your experiences into public policy, 
your insights into public policy, so that it is more, if you 
will, elegant. And you need to keep in touch with us, almost on 
a daily basis, with every one of the 435 Members of Congress to 
make sure that public policy does reflect your needs, because 
as a teacher, I know that things get put on top of you saying, 
``There is too much fat.'' You know, ``There are places to cut. 
We don't know why you can't manipulate or manage your budget.'' 
And once we start cutting, at the end of the year, after all of 
the cuts, the school closes, kids graduate, kids get promoted, 
and people say, ``Hmm, there must be more fat out there.''
    We understand that that isn't the case, that instruction is 
something that you need to invest in and that the investment is 
something that is realized, not only in math and science, but 
music, which is probably the paramount expression of math and 
science.
    And so I just want to get on my soapbox and let you know, 
as teachers, that you are a cornerstone of this democracy. 
Don't give up the ship. Keep fighting for these youngsters. And 
we are going to do our part here in Congress to make sure that 
we back up our words with the kinds of efforts that you need in 
your classrooms.
    So thank you very much.
    And Mr. Chairman, thank you.
    Chairman Boehlert. What an eloquent closure to this very 
productive hearing. Thank you so very much, Mr. Honda. And 
thank all of you. Now the clock says we have about three 
minutes and 20 seconds to get from this building over to the 
Capitol in order to vote.
    Thank you, once again.
    Mr. Honda. I need a hall pass.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
